U.S. Department of Health and Human Services
Office of Inspector General




Medicaid Integrity
Program Report
for Fiscal Year 2013




                                     O IG      March 2014
http://oig.hhs.gov
HHS Office of Inspector General                                                                                                     Page i
Medicaid Integrity Program Report | Fiscal Year 2013




Contents


FY 2013 Funding for Medicaid Integrity Activities .................................. 1
        Funding sources for Medicaid oversight ............................................................................. 1
        Oversight Activities ............................................................................................................. 1
        Allocation of Statutory Funding Streams ............................................................................ 2

FY 2013 results from funding in multiple years ...................................... 2
   Information systems and data security ............................................................... 3
                   Transformed Medicaid Statistical Information System (T-MSIS) ............................ 3
   State claims for the Federal share of Medicaid ................................................... 4
        Federal and State requirements for payment..................................................................... 4
                   Home health services.............................................................................................. 4
                   Rehabilitative services............................................................................................. 4
                   School-based transportation services..................................................................... 5
                   Hospital Outlier Payments ...................................................................................... 5
                   Personal care services (PCS).................................................................................... 6
                   Traumatic brain injury (TBI) services ....................................................................... 7
                   Assisted living facility (ALF) ..................................................................................... 7

        State stewardship over policies and payments................................................................... 8
                   Medicaid beneficiary identification numbers ......................................................... 8
                   Cost allocation methodologies and related issues ................................................. 8
                   Unallowable administrative costs ......................................................................... 10
                   Improper rates and reporting errors..................................................................... 10
                   Hospital eligibility issues ....................................................................................... 12
                   Identification of excluded providers ..................................................................... 13
                   Identification of third-party liability for payment ................................................. 13
   Recovery of the Federal share of Medicaid overpayments ............................... 14
                   State oversight of provider reconciliations of credit balances ............................. 14
                   State recoveries of improper payments and refunds of the Federal share .......... 15
                   CMS’s recovery of OIG-identified overpayments .................................................. 15
HHS Office of Inspector General                                                                                           Page ii
Medicaid Integrity Program Report | Fiscal Year 2013



   Medicaid Wasteful Policies and Practices ......................................................... 16
        Payments for prescription drugs ....................................................................................... 16
                  Medicaid Federal upper limit (FUL) amounts ....................................................... 16
                  State Maximum Allowable Cost Programs............................................................ 16

        Payments for blood glucose test strips and other medical equipment and supplies ....... 17
   Beneficiary eligibility and access to care........................................................... 18
        Home Health Care Restrictions of Eligibility ..................................................................... 18
   Medicaid legal and investigative activities ........................................................ 19
        OIG oversight of State Medicaid Fraud Control Units....................................................... 19
                  MFCU funding and accomplishments in FY 2013 ................................................. 19
                  FY 2013 onsite reviews of MFCUs ......................................................................... 19
                  Joint investigations with MFCUs ........................................................................... 20

        Other Medicaid-related criminal and civil actions............................................................ 21
        Exclusions from program participation ............................................................................. 24

Appendixes ........................................................................................... 27
Appendix A – FY 2013 Medicaid Audit and Evaluation Reports
Appendix B – OIG Priority Recommendations From Previous Fiscal Years
Appendix C – FY 2014 Medicaid Work Plan
HHS Office of Inspector General                                                            Page iii
Medicaid Integrity Program Report | Fiscal Year 2013



                          Selected Acronyms and Abbreviations
                   ALF            assisted living facility
                   AMP            average manufacturer price
                   AWP            average wholesale price
                   CDT            continuing day treatment
                   CHIP           Children’s Health Insurance Program
                   CMS            Centers for Medicare & Medicaid Services
                   CPE            certified public expenditure
                   CoP            Conditions of Participation
                   DOJ            Department of Justice
                   DSH            disproportionate share hospital
                   DRA            Deficit Reduction Act of 2005
                   DUR            drug utilization review
                   EPSDT          Early and Periodic Screening, Diagnosis, and Treatment
                   FBI            Federal Bureau of Investigation
                   FBT            family-based treatment
                   FDA            Food and Drug Administration
                   FMAP           Federal Medical Assistance Percentage
                   FOIA           Freedom of Information Act
                   FFS            fee for service
                   FUL            Federal upper limit
                   HCBS           home- and community-based services
                   HCFAC          Health Care Fraud and Abuse Control
                   HHA            home health agency
                   HHS            Department of Health and Human Services
                   HIPAA          Health Insurance Portability and Accountability Act
                   IEP            individualized education plan
                   MCE            managed care entity
                   MCO            managed care organization
                   MFCU           Medicaid Fraud Control Unit
                   MIP            Medicaid Integrity Program
                   MSIS           Medicaid Statistical Information System
                   NCCI           National Correct Coding Initiative
                   NPI            national provider identifier
                   OIG            Office of Inspector General
                   OMB            Office of Management and Budget
                   PARIS          Public Assistance Reporting Information System
                   PCS            personal care services
                   PHP            partial hospitalization program
                   RCC            residential care center
                   RMS            random moment sampling
                   RMSS           random moment sampling system
                   RMTS           random moment time study
                   SAU            school administrative unit
                   UPL            upper payment limit
HHS Office of Inspector General                        Page iv
Medicaid Integrity Program Report | Fiscal Year 2013




                                http://oig.hhs.gov
HHS Office of Inspector General                                                                     Page 1
Medicaid Integrity Program Report | Fiscal Year 2013




FY 2013 Funding for
Medicaid Integrity Activities
Funding sources for Medicaid oversight
During fiscal year (FY) 2013, the Office of Inspector General (OIG) of the Department of
Health and Human Services (HHS) used funding from two sources to oversee the integrity of Medicaid
activities: the Health Care Fraud and Abuse Control (HCFAC) program, created by the Health Insurance
Portability and Accountability Act of 1996 (HIPAA), and the Medicaid Integrity Program (MIP), created by
the Deficit Reduction Act of 2005 (DRA). Following are descriptions of each funding source.

Heath Care Fraud and Abuse Control Program. The HCFAC program was established by HIPAA to be
under the joint direction of the Attorney General and the Secretary of HHS, acting through the Inspector
General. Funds are appropriated in amounts that the Secretary and Attorney General jointly certify as
necessary to finance antifraud activities, up to ceilings fixed by the legislation. Certain of these funds
are, by law, set aside for OIG “activities … with respect to Medicare and Medicaid.” 1 HIPAA also requires
the Attorney General and the Secretary of HHS to submit a joint annual report to Congress identifying
expenditures and accomplishments under the law (Social Security Act, § 1817(k)(5)). The report
is available on our Web site at: http://oig.hhs.gov/reports-and-publications/hcfac/index.asp.

Since FY 1997, the HCFAC program has been the primary source of funding for Medicare and Medicaid
fraud investigations and prosecutions by OIG and the Department of Justice (DOJ). Beginning in FY 2009,
OIG began receiving discretionary funding in support of HCFAC-related activities to provide additional
resources for program integrity work.

Medicaid Integrity Program. The DRA, § 6034(c), established the MIP, through which OIG received
enhanced funding for fraud and abuse control activities “with respect to the Medicaid program” (section
6034(c)). This funding was provided annually from FY 2006 through FY 2010 in addition to OIG’s HCFAC
resources and is available until expended. In FY 2013, MIP funds were still available but were fully
expended by the end of the year.

Oversight Activities
Because there is an overlap among the HHS program oversight activities funded by HCFAC, MIP, and
other sources, our work may draw on funding from more than one source. For investigations and
prosecutions, it is particularly difficult (sometimes impossible) to accurately segregate enforcement
activities by funding stream. For example, even if we conduct an investigation exclusively with MIP
funds, the prosecution of that case could draw upon DOJ’s HCFAC funding and the matter would be
reportable pursuant to the requirements of both HCFAC and MIP. An overlap could also occur when an
investigation involves fraud in Medicaid and other Federal health care programs, such as Medicare, as
is often the case.



1
    Social Security Act, § 1817(k)(3)(A).
HHS Office of Inspector General                                                                                  Page 2
Medicaid Integrity Program Report | Fiscal Year 2013


For these reasons, this document does not artificially divide accomplishments among funding sources;
our Medicaid successes are typically the result of combined funding from available resources.

Allocation of Statutory Funding Streams
The table below illustrates that a sizable portion of OIG’s obligated funding has been used for Medicaid
oversight in recent years.

        Dollars in Millions
                  Funding Appropriated           Estimated OIG                                    Estimated
                  to OIG for Health Care        Obligations for                               Percentage of OIG
                        Oversight             Medicaid Oversight       Estimated Total           Health Care
       Fiscal     HIPAA/      MIP & Other     HIPAA/       MIP &      OIG Obligations for   Oversight Obligations
       Year       HCFAC                       HCFAC         Other     Medicaid Oversight    for Medicaid Integrity
       2006        $160           $25          $45            –              $45                     28 %
       2007        $166           $25          $25           $29             $53                     28 %
       2008        $170           $25          $33           $29             $62                     31 %
       2009        $196           $81          $34           $31             $65                     29 %
       2010        $209           $25          $42           $34             $76                     32%
       2011        $228            $0          $37           $38             $76                     28%
       2012        $226            $0          $53           $19             $72                     28%
       2013        $213            $0          $73           $2              $75                     30%
     Note: Numbers have been updated for FY 2013 and are approximate because of rounding.




FY 2013 results from
funding in multiple years
Our audit, evaluation, legal, and investigative work often requires more than a year to yield results.
Investigative activities in particular may require multiple years to achieve convictions, sentencing,
settlements, and/or exclusions. As a consequence, many of the results summarized in this document
reflect OIG’s funding and work over multiple years that culminated in FY 2013. We have organized the
FY 2013 output into the following categories:

•   Information systems and data security

•   State claims for the Federal share of Medicaid

•   Recovery of the Federal share of Medicaid overpayments

•   Medicaid wasteful policies and practices

•   Beneficiary eligibility and access to care

•   Legal and investigative activities
HHS Office of Inspector General                                                                         Page 3
Medicaid Integrity Program Report | Fiscal Year 2013


The appendixes provide lists of FY 2013 final audit and evaluation reports, priority recommendations
carried forward from prior periods, and summaries of Medicaid work in progress and planned new starts
in FY 2014.

The following audit, evaluation, and investigative results were previously reported in our
Semiannual Reports to Congress during FY 2013.




Information systems
and data security
Transformed Medicaid Statistical Information System (T-MSIS)
The Medicaid Statistical Information System (MSIS) is Medicaid’s only nationwide Medicaid eligibility and
claims database. The “transformed MSIS” (T-MSIS) is a continuation of past attempts by the Centers for
Medicare & Medicaid Services (CMS) to improve the MSIS. The data are intended for use in analytical
research, program integrity, planning, budgeting, and policy analyses associated with Medicaid. Our
September 2013 report raised concerns about States’ abilities to submit complete and accurate data to
the T-MSIS. Evidence from our review indicates continued problems with completeness, accuracy, and
other issues.

    Early Outcomes Show Limited Progress for the Transformed Medicaid Statistical Information System.
    OEI-05-12-00610. 2013 SEP.

Establish a deadline for when national T-MSIS data will be available; ensure that States submit required
T-MSIS data; and ensure that T-MSIS data are complete, accurate, and timely upon T-MSIS
implementation.

See also:
•   2014 MAR—High-Risk Security Vulnerabilities Identified During Reviews of Information Technology General
    Controls at State Medicaid Agencies. A-07-14-00433.

•   2012 JUN— Testimony of Ann Maxwell, Regional Inspector General for Evaluation and Inspections, Before the
    U.S. Senate Committee on Homeland Security and Governmental Affairs Subcommittee on Federal Financial
    Management, Government Information, Federal Services, and International Security. “Saving Taxpayer Dollars
    by Curbing Waste and Fraud in Medicaid.” (Testimony.)

•   2009 AUG—MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse, OEI-04-07-00240.
HHS Office of Inspector General                                                                       Page 4
Medicaid Integrity Program Report | Fiscal Year 2013




State claims for the
Federal share of Medicaid
The Federal Government and States share the cost of Medicaid. To receive a Federal share of Medicaid,
States must ensure that in each instance, pertinent Federal and State standards, conditions, and other
requirements must be met, including those pertaining to coverage specifications, quality of care,
eligibility of beneficiaries, and provider qualifications. The Office of Inspector General's (OIG) Medicaid
reviews of State claims for Federal reimbursement generally focus on whether one or more of such
requirements were met and were appropriately documented prior to the States’ submitting the claims
for reimbursement.

Federal and State requirements for payment
Home health services
New York—Provider noncompliance. New York improperly claimed Federal reimbursement for home
health services payments (about $31.4 million Federal share) that were unallowable. In 15 percent of
selected claims, we found one or more deficiencies including lack of physician review of plans of care, no
plans of care, insufficient documentation, unallowable place of service, and insufficient staff training.
The Social Security Act, § 1905(a)(7), authorizes home health services. Home health services are
provided to beneficiaries at their places of residence pursuant to their physicians’ orders and written
plans of care that the physicians are to review every 60 days.

New York City—Provider noncompliance. The State improperly claimed Federal reimbursement for
New York City home health services payments (about $69.1 million Federal share) that were
unallowable. We found a lack of physician review of plans of care and one instance in which a provider
was unable to document that the service was provided.

    New York State Improperly Claimed Medicaid Reimbursement for Some Home Health Services Claims
    Submitted by Certified Home Health Agencies. A-02-11-01008. 2013 SEP.

    New York Improperly Claimed Medicaid Reimbursement for Some Home Health Services Claims Submitted by
    Certified Home Health Agencies in New York City. A-02-10-01022. 2012 NOV.

New York should issue guidance to Medicaid home health agencies in the State on Federal and State
requirements for physicians’ orders and plans of care and refund the Federal share of unallowable
payments to the Federal Government.


Rehabilitative services
New York—Provider noncompliance. New York improperly claimed Federal reimbursement for
rehabilitative services payments (about $27.5 million Federal share) that were unallowable. Our review
of New York’s family-based treatment (FBT) rehabilitation services for recipients between the ages of 5
HHS Office of Inspector General                                                                        Page 5
Medicaid Integrity Program Report | Fiscal Year 2013


and 19 found that 84 percent of selected claims had one or more deficiencies. The deficiencies occurred
because FBT rehabilitation providers did not fully comply with State regulations, authorizing physicians
were not familiar with applicable State regulations and program requirements, and the State did not
adequately monitor providers for compliance with certain Federal and State requirements. The Social
Security Act, § 1905(a)(13) and 42 CFR § 440.130(d) authorize optional rehabilitative services for the
maximum reduction of physical or mental disability and restoration of an individual to the best possible
functional level.

    New York Improperly Claimed Medicaid Reimbursement for Family-Based Treatment Rehabilitation Services.
    A-02-10-01024. 2013 MAR.

If New York does not close the FBT program,, it should provide guidance to the provider community on
State regulations, provide guidance to physicians on State regulations and program requirements, and
improve its monitoring and oversight to ensure compliance. New York should refund the Federal share
of unallowable payments to the Federal Government.


School-based transportation services
New Hampshire—provider calculation errors and incorrect State guidance to providers. New
Hampshire improperly claimed Federal reimbursement for school-based transportation services
payments (about $2.7 million Federal share) that were unallowable. The payments were made to school
administrative units (SAUs). Of 115 items in a random sample, 78 items had 1 or more transportation
services associated with school-based transportation services that were not reimbursable by Medicaid.
The deficiencies occurred because the SAUs calculated costs on the basis of incorrect mileage, billed
costs that exceeded the amount detailed in the supporting documentation, or had inadequate or no
supporting documentation. In addition, New Hampshire issued incorrect guidance to SAUs on the basis
of its misunderstanding of Federal requirements and did not adequately monitor the claims submitted
by SAUs. The Social Security Act, §1903(c), permits Medicaid payment for medical services provided to
children through a child’s individualized education plan (IEP).

    New Hampshire Did Not Always Correctly Claim Medicaid Payments for School-Based Transportation Services.
    A-01-11-00008. 2012 OCT.

New Hampshire should strengthen its oversight of the New Hampshire Medicaid to Schools program to
ensure that claims for school-based transportation services comply with Federal and State requirements
and issue new guidance on school-based transportation that is consistent with Federal requirements.
New Hampshire should also refund the Federal share of unallowable payments to the Federal
Government and work with CMS to review Medicaid payments made to SAUs after our audit period and
refund any overpayments.


Hospital Outlier Payments
Wisconsin and Indiana—Provider data entry errors. In separate reviews, we found that Wisconsin and
Indiana claimed Federal reimbursement for unallowable high-dollar outlier payments (about $2.1 million
Federal share) that the States made to hospitals for inpatient services. The hospitals had submitted
HHS Office of Inspector General                                                                          Page 6
Medicaid Integrity Program Report | Fiscal Year 2013


incorrect charges, which they attributed to data entry errors. In Wisconsin, 22 percent of the high-dollar
payments we reviewed were unallowable; in Indiana, 92 percent were unallowable. When hospitals’
charges exceed thresholds, the States make what is known as outlier payments. Outlier payments are
intended to protect hospitals against large financial losses associated with high-cost cases and generally
result in unusually high-dollar Medicaid payments.

    Wisconsin Claimed Medicaid Reimbursement for High-Dollar Inpatient Services That Were Unallowable.
    A-05-11-00037. 2013 JUN.

    Indiana Claimed Medicaid Reimbursement for High-Dollar Inpatient Services That Were Unallowable.
    A-05-11-00040. 2013 SEP.

Wisconsin and Indiana should use the results of the audits in their provider education activities related
to data entry procedures and refund the Federal share of unallowable payments to the Federal
Government.


Personal care services (PCS)
OIG PCS Portfolio—Provider noncompliance and inconsistent program policies. A November 2012 OIG
Portfolio report summarized the results of over 20 reports pertaining to PCS. With regard to quality of
care and beneficiary safety, we reported that program safeguards intended to ensure medical necessity,
patient safety, and quality were often ineffective. We also reported inconsistent standards for, and
monitoring of, the qualifications of PCS attendants and problematic provider billing practices. PCS cover
nonmedical services supporting activities of daily living, which may include bathing, dressing, light
housework, meal preparation, and transportation. (See OIG’s November 2012 Spotlight on PSC services,
available on our Web site at http://oig.hhs.gov.)

    Medicaid—Personal Care Services Portfolio—Trends, Vulnerabilities, and Recommendations for Improvement.
    OIG 12-12-01. 2012 NOV.

CMS should establish minimum Federal PCS attendant qualification standards applicable to all PCS
reimbursed by Medicaid; require States to either enroll all PCS attendants as providers or require all PCS
attendants to register with their State Medicaid agencies and assign each attendant a unique identifier;
require that PCS claims include the specific date(s) when services were performed and the identity of the
rendering PCS attendants; and issue operational guidance for claims documentation, beneficiary
assessments, plans of care, and supervision of attendants. CMS should also issue guidance to States
regarding adequate prepayment controls, consider whether additional controls are needed to ensure
that PCS are allowable and are actually provided, and take action to provide States with data suitable for
identifying overpayments for PCS claims during periods when beneficiaries are receiving institutional
care paid for by Medicare or Medicaid.

Maryland—Provider noncompliance. Maryland improperly claimed Federal reimbursement for PCS
payments (about $10.8 million Federal share) that were unallowable. Our April 2013 report revealed
deficiencies related to unqualified PCS attendants, unapproved or missing plans of care, unauthorized
services, and undocumented services.
HHS Office of Inspector General                                                                            Page 7
Medicaid Integrity Program Report | Fiscal Year 2013


      Maryland Improperly Claimed Personal Care Services Provided Under Its Medicaid Home and Community-
      Based Services Waiver for Older Adults. A-03-11-00201. 2013 APR.

Maryland should work with the State’s Department of Aging to improve controls over PCS claims to
ensure compliance and refund the Federal share of unallowable payments to the Federal Government.

See also:
•     West Virginia Improperly Claimed Some Personal Care Services Under Its Medicaid State Plan. A-03-11-00204.
      2012 OCT.

Traumatic brain injury (TBI) services
New York—provider noncompliance and program management deficiencies. New York improperly
claimed Federal reimbursement for TBI payments (about $54 million Federal share) that were
unallowable because the services were provided to beneficiaries not qualified for nursing home level of
care and/or services were not documented and/or were not provided in accordance with a plan of care.
Some eligibility assessments were conducted by uncertified individuals and/or were not properly
documented. Additional TBI payments were potentially unallowable; however the data were insufficient
to determine beneficiary eligibility for such services.

      New York’s Claims for Medicaid Services Provided Under Its Traumatic Brain Injury Waiver Program Did Not
      Comply With Certain Federal and State Requirements. A-02-10-01043. 2013 MAY.

New York should require its contracted development centers to ensure and document that all
beneficiaries approved for TBI services have been assessed by certified individuals and are eligible for
the services, require adequate training for assessors on the Federal and State requirements, require
providers to ensure that they document the services billed and claim reimbursement only for allowable
ones, refund the Federal share of unallowable payments to the Federal Government, and work with CMS
to resolve other claims for which payment may have been unallowable.


    Assisted living facility (ALF)
Seven States—Provider noncompliance, ineffective oversight. We found that 77 percent of
beneficiaries in seven selected States received home- and community-based services (HCBS) in ALFs that
were cited for one or more deficiencies with regard to State licensure or certification requirements.
Other deficiencies involved missing or insufficient plans of care. As part of a 35-State review, we
specifically analyzed seven selected States with the highest numbers of beneficiaries receiving HCBS in
ALFs: Georgia, Illinois, Minnesota, New Jersey, Oregon, Texas, and Washington. ALFs are State-regulated
and -monitored residential long-term-care options that provide or coordinate oversight and services to
meet the residents’ individualized scheduled needs, on the basis of the residents’ assessments and
service plans and their unscheduled needs as they arise. 2 We did not attempt to identify the payment
amounts associated with the deficiencies.


2
 Assisted Living Workgroup, Assisted Living Workgroup Report to the U.S. Senate Special Committee on Aging,
2003.
HHS Office of Inspector General                                                                         Page 8
Medicaid Integrity Program Report | Fiscal Year 2013


    Home and Community-Based Services in Assisted Living Facilities. OEI-09-08-00360. 2012 DEC.

CMS should issue guidance to State Medicaid programs emphasizing the need to comply with Federal
requirements for covering HCBS.


State stewardship over policies and payments
This section describes gaps and vulnerabilities in States’ program oversight and management practices
that inappropriately inflate State and/or Federal costs of Medicaid.

Medicaid beneficiary identification numbers
New York—Systems interface deficiency. New York improperly claimed Federal reimbursement for
payments (about $7.3 million Federal share) to managed care organizations (MCOs) that were
unallowable because the payments were duplicative. Some beneficiaries enrolled in Medicaid managed
care had more than one Medicaid identification number, and New York’s eligibility systems did not
identify the potential beneficiary matches between the systems. We reviewed payments New York
made to different MCOs for the same beneficiary and found that MCOs received duplicate monthly
Medicaid payments for the beneficiaries. We also found that New York made eligibility errors.

    New York State Made Unallowable Medicaid Managed Care Payments for Beneficiaries Assigned Multiple
    Medicaid Identification Numbers. A-02-11-01006. 2013 APR.

New York should ensure that no beneficiary is issued multiple Medicaid identification numbers or
develop one eligibility system that could be used to determine whether applicants are enrolled in any
medical or public assistance program throughout New York State and require local departments of social
services to ensure that applicants provide valid SSNs when required and maintain documentation to
support eligibility determinations. New York should refund the Federal share of unallowable payments
to the Federal Government.

See also:
•   2014 JAN—New York State Made Unallowable Medicaid Fee-for-Service Payments for Beneficiaries Also
    Enrolled in Medicaid Managed Care. A-02-12-01007.

•   2012 MAY—Medicaid Rates for New York State-Operated Developmental Centers May Be Excessive.
    A-02-11-01029.

•   2014 MAR—Medicaid Rates for Residential Habilitation Services Provided at New York State-Operated
    Residences Are Excessive. A-02-13-01008.

Cost allocation methodologies and related issues
Wisconsin—State noncompliance. Wisconsin improperly claimed Federal reimbursement for payments
(about $22.8 million Federal share) to residential care centers (RCCs) that were unallowable because the
State used a noncompliant cost allocation methodology and used estimates that it could not adequately
support. The State also claimed unsupported administrative costs as an add-on to the RCC service costs.
HHS Office of Inspector General                                                                         Page 9
Medicaid Integrity Program Report | Fiscal Year 2013


Wisconsin had contracted with a consultant to develop initiatives to target new revenues that might be
available to the State.

    Wisconsin Improperly Claimed Federal Medicaid Reimbursement for Most Residential Care Center Payments.
    A-05-07-00036. 2013 SEP.

Wisconsin should work with CMS to identify payment and allocation methodologies for claiming
allowable Medicaid RCC costs and refund the unallowable amounts to the Federal Government.

Arizona—State noncompliance. Arizona improperly claimed Federal reimbursement for Medicaid
school-based administrative costs (about $11.6 million Federal share) that were unallowable because the
random moment timestudies (RMTS) methodology that Arizona used to allocate costs to Medicaid was
not fully consistent with Federal requirements and the State did not always maintain the required
supporting documentation. Also, the 2004 State guide included incorrect guidance that allowed its
contractor to discard sample items. We set aside an additional $18.8 million for CMS resolution. Federal
regulations provide that random moment sampling (RMS), which uses RMTS, is an acceptable method
for allocating costs to Federal awards when employees work on multiple activities. The methodology
must meet acceptable statistical sampling standards, including that the results must be statistically valid.

    Arizona Improperly Claimed Federal Reimbursement for Medicaid School-Based Administrative Costs.
    A-09-11-02020. 2013 JAN.

Arizona should strengthen controls to ensure that all required documentation to support the RMTS
methodology is maintained and the RMTS methodology is consistent with Federal requirements. Also,
Arizona should refund to the Federal Government the unallowable school-based administrative costs,
work with CMS to determine the allowability of the amount we set aside for further analysis, and refund
to the Federal Government any amount determined to be unallowable. We also recommend that
Arizona review periods after our audit period and make appropriate financial adjustments for any
unallowable school-based administrative costs claimed.

Florida—State noncompliance. Florida improperly claimed Federal reimbursement for administrative
costs (about $2.2 million Federal share) that were unallowable because RMS observation forms were not
completed as specified and the RMS coordinator’s review did not detect the noncompliance. As a result,
the Medicaid administrative costs were overstated. Further, an additional $20 million was questionable
because of several vulnerabilities that we identified in the RMS statistical sampling methods. Florida
claimed a 50-percent Federal share for the Medicaid portion of the administrative costs of the State’s
Agency for Persons With Disabilities (APD), including costs allocated on the basis of APD’s quarterly
random moment sampling (RMS). These and other deficiencies are addressed by the recommendations
below.

    Florida Claimed Some Medicaid Administrative Costs That Did Not Comply With Program Requirements.
    A-04-10-00076. 2013 MAR.

Florida should require APD to amend its cost allocation plan to ensure that APD’s RMS gives appropriate
consideration to all hours worked by employees, properly accounts for invalid responses and
nonresponses, and requires observation forms to include the sampled position numbers. Florida also
should refund the unallowable amount to the Federal Government; ensure that APD follows pertinent
HHS Office of Inspector General                                                                          Page 10
Medicaid Integrity Program Report | Fiscal Year 2013


procedures defined in its cost allocation plan and work with CMS to determine what portion of the
remaining Federal share of costs was allowable under Federal requirements.


Unallowable administrative costs
Pennsylvania—State noncompliance. Pennsylvania improperly claimed Federal reimbursement for
administrative costs of the Pennsylvania Regional Housing Coordinator Initiative (about $1.9 million
Federal share) that were unallowable because the services did not directly relate to the administration of
Medicaid services. The claimed costs represented indirect services, such as the provision of information,
referrals, training, and technical assistance, to support housing programs, including programs that
provided housing services to Medicaid beneficiaries.

    Pennsylvania Claimed Unallowable Medicaid Administrative Costs for the Regional Housing Coordinator
    Initiative. A-03-11-00210. 2012 DEC.

Pennsylvania should discontinue all future claims for Regional Housing Coordinator Initiative costs,
refund the Federal funds claimed for unallowable Initiative costs, and refund the Federal share of
unallowable Initiative costs claimed after our audit period.


Improper rates and reporting errors
California—Services not eligible for the enhanced rate for family planning. California improperly
claimed Federal reimbursement (about $5.7 million Federal share) for services at a 90-percent enhanced
rate for family planning when they should have been claimed at the regular rate. The difference
between the 90-percent rate and the regular rate was unallowable. The 90-percent rate was
unallowable because the primary purpose of the visits was not family planning, the charges were for
followup visits properly reimbursed at the regular rate, or the supporting documentation was
insufficient. We also found claims that contained either no procedure code or a procedure code that
was not approved by CMS for reimbursement at the 90-percent rate.

    California Improperly Claimed Enhanced Federal Reimbursement for Medicaid Family Planning Services
    Provided in San Diego County. A-09-11-02040. 2012 DEC.

California should establish billing procedures to ensure that only services whose primary purpose is
family planning are claimed for reimbursement at the 90-percent enhanced rate, and should establish
Medicaid Management Information System edits to ensure that family planning claims meet Federal and
State requirements for reimbursement at the 90-percent enhanced rate and at the regular rate for
followup visits. Also, California should refund the unallowable Federal enhanced reimbursement to the
Federal Government.


Arkansas—Services not eligible for the enhanced rate for family planning. Arkansas improperly
claimed Federal reimbursement (about $1.9 million Federal share) for services at a 90-percent enhanced
rate for family planning when they should have been claimed at the regular rate. The difference
between the 90-percent rate and the regular rate was unallowable. The payments were inappropriate
HHS Office of Inspector General                                                                               Page 11
Medicaid Integrity Program Report | Fiscal Year 2013


because they exceeded limits specified in the State’s allocation methodology and resulted from the
State’s errors in compiling the family planning expenditures and from errors in the computer
programming used to identify costs, i.e., infant delivery costs were incorrectly classified as family
planning expenditures as a result of the programming errors.

    Arkansas Inappropriately Received Medicaid Family Planning Funding for Federal Fiscal Years 2006 Through
    2010. A-06-11-00022. 2013 JAN.

Arkansas should review its pertinent computer programming; submit documentation to CMS supporting
the reasonableness of the percentages used in allocations; and establish review procedures to ensure
that expenditures are correctly compiled, assigned, and claimed. Arkansas should also refund to the
Federal Government the family planning Federal share, work with CMS to determine the allowable
portion of the family planning Federal share that it received for allocated sterilization costs, review the
claim-level data of quarters that we did not analyze, identify infant delivery costs incorrectly classified,
and refund overpayments to the Federal Government.


Missouri—State errors in reporting payments for family planning services. Missouri improperly
claimed Federal reimbursement for costs of Medicaid family planning sterilization procedures (about
$1.5 million Federal share) that were unallowable. The amount claimed was overstated because of two
types of errors the State made on the Form CMS-64. The excess Federal reimbursement occurred
because the State agency’s adjustment process—which was designed to identify costs for family
planning sterilization procedures—was ineffective.

    Missouri Did Not Always Correctly Claim Costs for Medicaid Family Planning Sterilization Procedures for
    Calendar Years 2009 and 2010. A-07-12-01117. 2013 JUN.

Missouri should ensure that future expenditures for family planning sterilization procedures are correctly
claimed to CMS, refund the Federal share of payments we estimated to be unallowable, review family
planning sterilization procedures for quarterly reporting periods after our audit period, and refund the
Federal share of any unallowable payments.


Missouri—Errors in reporting payments for intermediate care facility (ICF) services. Missouri
improperly claimed Federal reimbursement for State-operated intermediate care facilities payments
(about $7.2 million Federal share) that were unallowable because Missouri claimed the same payments
twice—during the quarter ended December 2010 and again during the quarter ended March 2011.
Missouri’s controls did not specify that the State perform reconciliations of payments to claimed costs to
ensure that it did not claim duplicate or unsupported Medicaid payments on its CMS-64 report.

    Missouri Claimed Unallowable Medicaid Payments for Individuals With Intellectual and Developmental
    Disabilities in Intermediate Care Facilities. A-07-12-03180. 2013 JUN.

Missouri should develop and implement sufficient internal controls and procedures, including those
pertaining to reconciliations of payments to claimed costs, and refund the Federal share of payments we
estimated to be unallowable.
HHS Office of Inspector General                                                                          Page 12
Medicaid Integrity Program Report | Fiscal Year 2013


See also:
•   Missouri Did Not Always Correctly Claim Costs for Medicaid Family Planning Drugs for Calendar Years 2009 and
    2010. A-07-12-01118. 2014 JAN.

Hospital eligibility issues
Disproportionate share hospitals

New Jersey—State noncompliance. New Jersey improperly claimed disproportionate share (DSH)
payments (about $50 million Federal share) for five hospitals that did not meet Federal eligibility
requirements for such payments during our audit period. For a hospital to receive DSH payments, the
State must properly classify the hospital as a DSH. New Jersey stated that it claimed DSH payments for
the hospitals because it misinterpreted Federal regulations on DSH eligibility. Under the DSH program,
the State agency is required to make special payments to hospitals that serve a disproportionate share of
low-income and/or uninsured patients. The State did not ensure that the hospitals were eligible for DSH
before claiming the amounts for Federal reimbursement.

    The New Jersey Department of Human Services Claimed Medicaid Disproportionate Share Hospital Payments
    to Five Hospitals That Did Not Meet Federal Eligibility Requirements.
    A-02-09-01017. 2012 NOV.

New Jersey should ensure that all hospitals designated as DSHs meet Federal eligibility requirements for
DSH payments. The State should also refund the Federal share of unallowable payments to the Federal
Government.

State-Owned Psychiatric Hospitals

Missouri—State noncompliance. Our review of one of Missouri’s nine State-owned psychiatric hospitals
found that the State improperly claimed Federal reimbursement (about $21.3 million Federal share).
The reimbursement was unallowable because the selected State-owned hospital did not demonstrate
compliance with the special Medicare Conditions of Participation (CoP). For States to claim Federal
Medicaid reimbursement for inpatient psychiatric services and DSH payments to psychiatric hospitals,
the hospitals’ inpatient services must meet the Federal definition of such services. The definition
includes that the providers demonstrate compliance with the basic Medicare CoP generally applicable to
all hospitals and two special Medicare CoP applicable to psychiatric hospitals. The State did not ensure
that the State-owned facility was eligible for Federal reimbursement for inpatient psychiatric services
and DSH payment.

    Missouri Improperly Claimed Federal Reimbursement for Most Reviewed Medicaid Inpatient Psychiatric
    Hospital Service and Disproportionate Share Hospital Payments to Hawthorn Children’s Psychiatric Hospital.
    A-05-12-00050. 2013 JUN

Indiana—State noncompliance. Indiana improperly claimed Federal reimbursement for payments
(about $12.8 million Federal share) for two of its six State-owned psychiatric hospitals. For a different
review period, Indiana also improperly claimed Federal reimbursement for payments (about $7.5 million
Federal share) for a third State-owned psychiatric hospital. Our reviews found that the State-owned
facilities did not demonstrate the required compliances with CoP. Indiana did not ensure that its
HHS Office of Inspector General                                                                         Page 13
Medicaid Integrity Program Report | Fiscal Year 2013


facilities were eligible for Federal Medicaid reimbursement before claiming reimbursement for inpatient
psychiatric services.

    Indiana Improperly Claimed Federal Reimbursement for All Reviewed Medicaid Inpatient Psychiatric Hospital
    Service Payments to Evansville State Hospital. A-05-12-00041. 2013 JUN.

    Indiana Improperly Claimed Federal Reimbursement for All Reviewed Medicaid Inpatient Psychiatric Hospital
    Service Payments to Logansport State Hospital. A-05-12-00042. February 2013.

    Indiana Improperly Claimed Federal Reimbursement for Most Medicaid Inpatient Psychiatric Hospital Service
    and Disproportionate Share Hospital Payments to Evansville Psychiatric Children’s Center.
    A-05-12-00040. 2013 MAY.



Missouri and Indiana should ensure that Federal reimbursement for the subject payments to psychiatric
hospitals is claimed only if the hospitals can demonstrate compliance with the basic and special
Medicare CoP, refund the Federal share of the improperly claimed amount to the Federal Government,
and work with CMS to resolve other claims for which payment may have been unallowable.


Identification of excluded providers
California—State noncompliance. California improperly claimed Federal reimbursement for payments
(about $1.2 million Federal share) that were unallowable because the items or services provided were
associated with excluded providers. The State did not implement policies and procedures to determine
whether excluded providers were listed on claims. OIG may exclude certain individuals and entities from
participation in federally funded health care programs, including Medicaid. With a limited exception for
certain emergency care, such programs should not pay for items or services to the excluded provider, to
anyone who employs or contracts with the excluded provider, or to any hospital or other provider where
the excluded provider furnished items or services during the period of exclusion.

    California Made Unallowable Medicaid Payments for Items and Services Furnished, Ordered, or Prescribed by
    Excluded Providers.
    A-09-11-02016. 2013 APR.

California should ensure that it does not pay for items or services furnished, ordered, or prescribed by
excluded providers by developing and implementing policies and procedures to monitor agencies that
enroll providers or process Medicaid claims to ensure compliance with CMS guidance that reviews be
conducted monthly to identify excluded providers and determine whether any providers (i.e., furnishing,
ordering, or prescribing) listed on claims are excluded and deny those claims. California should refund
the Federal share of payments we estimated to be unallowable and work with CMS to resolve other
claims for which payments may have been unallowable.


Identification of third-party liability for payment
Pursuant to our review, States estimated that about $4 billion remained at risk of not being recovered
because Medicaid paid for costs that were the responsibility of other payers. Medicaid is intended to be
HHS Office of Inspector General                                                                           Page 14
Medicaid Integrity Program Report | Fiscal Year 2013


the payer of last resort. Millions of Medicaid beneficiaries have additional health insurance through
third-party sources, such as Medicare, TRICARE, or other Government or private payers. Improved State
processes and congressional action seem to have had some positive effect, but continued vigilance is
needed. States continue to report longstanding challenges when trying to identify other insurance
coverage. The recommendations in our January 2013 report should help States better identify liable
third parties, recover improper Medicaid payments, and return the Federal share of the payments to the
Federal Government.

    Medicaid Third-Party Liability Savings Increased, But Challenges Remain. OEI-05-11-00130. 2013 JAN.

CMS should work with States to address longstanding challenges working with third parties to identify
insurance coverage and recover payments, address States’ challenges with 1-year timely filing limits for
Medicare and TRICARE, and strengthen enforcement mechanisms designed to deal with uncooperative
third parties.

See also:
•   North Carolina Medicaid Overpaid Hospitals for Some Inpatient Services That Medicare Paid, A-04-11-06137.
    2013 MAY.

•   South Carolina Medicaid Overpaid Hospitals for Some Inpatient Services That Medicare Paid. A-04-11-06145.
    2014 FEB.




Recovery of the Federal share of
Medicaid overpayments
Principles and standards for determining allowable costs incurred by State and local governments under
Federal awards are established by 2 CFR pt. 225 (Office of Management and Budget (OMB) Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments). Pursuant to 2 CFR § App. A, C.1.c., to be
allowable, costs must be authorized or not prohibited by State or local laws and regulations.

State oversight of provider reconciliations of credit balances
North Carolina. State and provider noncompliance with overpayment requirements. One method for
identifying overpayments is to examine credit balances in provider accounts. Our review in North
Carolina identified overpayments associated with unresolved credit balances at selected providers
totaling about $10,000 (about $7,000 Federal share). On the basis of the results, we estimated that
North Carolina could realize a Statewide recovery of at least $1.2 million (at least $902,000 Federal
share) from our review period and obtain future savings if it enhanced its efforts to recover
overpayments in provider accounts. The selected providers reviewed did not identify and report
Medicaid overpayments because the State agency did not require providers to exercise reasonable
diligence in reconciling invoice records with credit balances to determine whether overpayments existed.

    Noninstitutional Providers in North Carolina Did Not Reconcile Invoice Records With Credit Balances and Report
    the Associated Medicaid Overpayments to the State Agency. A-04-11-04016. 2012 NOV.
HHS Office of Inspector General                                                                          Page 15
Medicaid Integrity Program Report | Fiscal Year 2013



North Carolina should realize future savings by requiring providers to exercise reasonable diligence in
reconciling invoice records with credit balances and reporting the associated Medicaid overpayments to
the State. Also, North Carolina should refund the Federal share of the overpayments we identified to the
Federal Government and enhance its efforts to recover the additional overpayments we estimated from
our review period.

See also:
•   Georgia—Acute Care Hospitals in Georgia Did Not Always Reconcile Invoice Records With Credit Balances and
    Report the Associated Medicaid Overpayments to the State Agency. A-04-12-04021. 2013 FEB.

•   Missouri—Nursing Facilities in Missouri Did Not Reconcile Invoice Records With Credit Balances and Report the
    Associated Medicaid Overpayments to the State Agency. A-07-11-03169. 2013 JAN.

•   California—Noninstitutional Providers in California Did Not Always Reconcile Invoice Records With Credit
    Balances and Refund to the State Agency the Associated Medicaid Overpayments, A-09-12-02047. 2013 JUL.

State recoveries of improper payments and refunds of the Federal
share
Florida. Noncompliance with collection and reporting requirements. Our audit covered nearly $22.3
million (about $12.2 million Federal share) in State-identified Medicaid overpayments for ineligible
individuals during the period July 1, 2007, through June 30, 2010. Of this amount, the State collected
almost $2.5 million ($1.4 million Federal share) but had not collected nearly $19.8 million ($10.8 million
Federal share). The State did not return the Federal share of either the collected or uncollected amounts
to CMS. In addition, the State collected more than $1.5 million (about $850,000 Federal share) of
overpayments subsequent to our audit period, from July 1, 2010, through June 30, 2012, that it did not
report to CMS.

    Florida Medicaid: Millions in Overpayments Not Refunded. A-04-11-08007. 2013 MAR.

Florida should improve coordination to report State-identified Medicaid overpayments and collections.
It should refund the Federal share of amounts collected during our audit period and during the 2 fiscal
years following our audit period. It should work with CMS to determine whether it should refund the
Federal share of recipient overpayments identified but not collected.


CMS’s recovery of OIG-identified overpayments
As of December 2012, CMS had not collected $225.6 million of $1.2 billion in Medicaid overpayments to
States that OIG had identified. When CMS concurs with a recommendation to collect overpayments, it
may sustain (agree to collect or offset) either the entire amount or a different amount. If the overpaid
State agrees in writing with OIG or CMS to refund the overpayment, the State should refund it to the
Federal Government. If the State does not agree, CMS should follow other procedures to resolve the
OIG recommendations.
HHS Office of Inspector General                                                                      Page 16
Medicaid Integrity Program Report | Fiscal Year 2013


    Medicaid overpayments—The Centers for Medicare & Medicaid Services Collected the Majority of Medicaid
    Overpayments but Millions Remain Uncollected.
    A-05-11-00071. 2013 FEB.

CMS should review and address delays in resolving OIG audit recommendations and promptly pursue
corrective actions, maintain adequate documentation to support the collection of overpayments in
accordance with OMB Circular A-50 and CMS Standard Operating Procedures, educate the States about
their responsibility to report overpayments on the correct line of the CMS-64 to improve oversight of the
reporting process, and collect the remaining amount we identified as due the Federal Government.




Medicaid Wasteful Policies
and Practices
Wasteful spending occurs when Federal or State Medicaid laws, policies, methodologies, and practices
fail to ensure that program costs are consistent with efficiency and economy; reasonableness; and
Medicaid’s role as a high-volume, prudent payer in the health care marketplace. Actions to reduce
Medicaid costs through changes in policies and practices generally provide mutual benefit to States and
the Federal Government.

Payments for prescription drugs
Medicaid Federal upper limit (FUL) amounts
We found that FUL amounts based on average manufacturer prices (AMPs) were 61 percent lower than
FUL amounts based on published prices, e.g., average wholesale price (AWP) at the median. AMP-based
FULs exceeded sampled pharmacy acquisition costs by 43 percent in the aggregate.

    Analyzing Changes to Medicaid Federal Upper Limit Amounts. OEI-03-11-00650. 2012 OCT.

CMS should complete the implementation of the post-Affordable Care Act AMP-based FUL amounts for
drug reimbursements.


State Maximum Allowable Cost Programs
States may achieve additional cost savings by using different Maximum Allowable Cost (MAC) pricing
formulas and inclusion criteria. For example, we estimated that by using Wyoming’s methodology as a
model, 39 of 45 States could have saved about $483 million on their Medicaid generic drug costs in the
first half of 2011. The use of more aggressive pricing formulas and inclusion criteria could achieve
additional cost savings.

    Medicaid Drug Pricing in State Maximum Allowable Cost Programs. OEI-03-11-00640. 2013 AUG.
HHS Office of Inspector General                                                                            Page 17
Medicaid Integrity Program Report | Fiscal Year 2013



CMS should complete the implementation of the post-Affordable Care Act FUL amounts and encourage
States to reevaluate their Maximum Allowable Cost pricing programs for additional cost-saving
opportunities.


Payments for blood glucose test strips
and other medical equipment and supplies

New York. For a 1-year audit period, we estimated that the New York Medicaid program could have
saved an additional $5.9 million (36 percent) on diabetes test strips through competitive bidding.

    The New York State Manufacturer Rebate Program Significantly Reduced Medicaid Costs for Home Blood-
    Glucose Test Strips But Could Achieve Additional Reductions. A-02-11-01042. 2013 JUL.



New Jersey. For a 1-year audit period, we estimated that fee-for-service savings of $1.8 million to
$2.7 million and managed care savings of $3.1 million to $4.5 million during the same period could be
achieved. Our recommendations could result in a reduction of 46 to 68 percent in the price of test strips
paid under the New Jersey Medicaid fee-for-service program and a reduction of 49 to 70 percent in the
price paid by the Medicaid MCOs.

    New Jersey Medicaid Program Could Achieve Savings by Reducing Home Blood-Glucose Test Strip Prices.
    A-02-12-01010. 2013 SEP.



Illinois. For one State fiscal year (SFY), we estimated that Illinois could have saved an additional
$8.5 million. On average, Medicare’s rates were about 40 percent less than the State's Medicaid rates.

    Illinois Significantly Reduced Medicaid Costs for Home Blood-Glucose Test Strips But Could Achieve Additional
    Reductions. A-05-12-00009. 2013 MAY.



Ohio. For a 1-year audit period, the Ohio Medicaid program could have saved an estimated $3 million
on selected durable medical equipment items. We estimated that the State agency’s cost could have
been reduced to about $7.4 million (from $10.5 million).

    The Ohio Medicaid Program Could Significantly Lower Payment Rates for Selected Durable Medical Equipment
    and Supplies. A-05-12-00038. 2013 APR.



Texas. If Texas had used Medicare’s competitive bidding payment amounts for the Dallas/Fort Worth
area during the 1-year review period, it could have saved about $2 million (State and Federal shares
combined) on 30 selected medical equipment and supplies items.

    Medicaid DMEPOS Costs May be Exceeding Medicare Costs in Competitive Bidding Areas.
    OEI-06-13-00470. 2013 SEP.
HHS Office of Inspector General                                                                          Page 18
Medicaid Integrity Program Report | Fiscal Year 2013


Recommendations from the above reports:
•   New York should establish a competitive bidding program similar to that in the Medicare program for
    the purchase of test strips.

•   New Jersey should establish a competitive bidding program similar to that in the Medicare program
    for the purchase of test strips, reduce the Medicaid fee-for-service reimbursement rate for test strips
    to be comparable to the average retail price, or work with Medicaid MCOs to adjust payment rates
    for test strips to the average retail price or to Medicare competitive payment rates.

•   Illinois should lower the net cost of test strips through changes to its provider reimbursement rates.

•   Ohio should establish competitive bidding that functions similar to Medicare’s Competitive Bidding
    Program for the purchase of selected durable medical equipment and supply items.

•   Texas. Further analysis is needed to better understand the full potential of limiting Federal
    reimbursement for State Medicaid spending on medical equipment and supplies to Medicare
    payment rates.

See also:
•   The California Medicaid Program Could Significantly Lower Payment Rates for Selected Durable Medical
    Equipment. A-09-13-02028. 2014 MAR.

•   OIG Spotlight article. “Diabetes Test Strips.” 2014 MAR.

•   State Medicaid Agencies Can Significantly Reduce Medicaid Costs for Diabetic Test Strips. A-05-13-00033.
    2014 MAR.

•   The Minnesota Medicaid Program Could Significantly Lower Payment Rates for Selected Durable Medical
    Equipment and Supplies. A-05-13-00015. 2014 JAN.

•   State Medicaid Program Efforts to Control Costs for Disposable Incontinence Supplies. OEI-07-12-00710.
    2014 JAN.




Beneficiary eligibility
and access to care
Home Health Care Restrictions of Eligibility
We identified 11 States with policies in their Medicaid State Plans or other written policy documents that
improperly restrict eligibility for the mandatory home health benefit to homebound individuals:
Alabama, Arkansas, Indiana, Montana, Nebraska, New Mexico, North Dakota, Pennsylvania, South
Dakota, Utah, and West Virginia. The report encourages CMS to finalize its pertinent regulation, after
which it could consider issuing guidance specific to home health services and homebound eligibility
HHS Office of Inspector General                                                                         Page 19
Medicaid Integrity Program Report | Fiscal Year 2013


restrictions, explaining why such restrictions are improper. In July 2000, CMS released a State Medicaid
Director letter stating that although Medicare requires beneficiaries to be homebound to qualify for
home health services, imposing a homebound requirement on Medicaid home health benefits violates
CMS’s interpretation of Medicaid regulations related to “amount, duration, and scope of services” and
“comparability of services.” In July 2011, CMS published a Notice of Proposed Rulemaking to codify its
interpretation, but it remains to be implemented. (76 Fed. Reg. 41032, 41033, and 41038 (July 12,
2011). The report did not include formal recommendations to CMS.

    Some States Improperly Restrict Eligibility for Medicaid Mandatory Home Health Services. OEI-07-13-00060.
    2013 JUL.




Medicaid legal and
investigative activities
OIG oversight of State Medicaid Fraud Control Units
Medicaid Fraud Control Units (MFCUs or Units) are key partners with OIG in the fight against fraud,
waste, and abuse in State Medicaid programs. HHS OIG oversees MFCUs and administers grants that
provide Federal funding for Unit operations. The Federal Government reimburses 75 percent of the
costs of operating a Unit; the States contribute the remaining 25 percent. MFCUs investigate and
prosecute Medicaid provider fraud and patient abuse and neglect in health care facilities or board and
care facilities.

MFCU funding and accomplishments in FY 2013
In FY 2013, combined Federal and State expenditures for the operation of 50 MFCUs (including 1 in
Washington, DC), totaled about $231.5 million. The MFCUs employed 1,912 individuals. Collectively, in
FY 2013, MFCUs reported 15,590 investigations, of which 12,366 were related to Medicaid fraud and
3,224 were related to patient abuse and neglect, including misappropriation of patients’ private funds.
The cases resulted in criminal charges against or indictments of 1,588 individuals, including 1,197 for
fraud and 391 for patient abuse and neglect, including patient funds cases. In total, 1,341 criminal
actions were reported in FY 2013, of which 991 were related to Medicaid fraud and 350 were related to
patient abuse and neglect, including patient funds cases. Civil judgments and settlements for FY 2013
totaled 879 and monetary recoveries in civil cases totaled over $1.5 billion. (Medicaid Fraud Control
Units FY 2013 Annual Report. OEI-06-13-00340. Appendix C. 2014 MAR.) See also Medicaid Fraud
Control Units 2013 Statistics Interactive Map and Chart on our Web site.

FY 2013 onsite reviews of MFCUs
OIG has developed 12 performance standards for use in assessing the operations of MFCUs. A copy of
the MFCU performance standards, most recently revised in June 2012, may be found on the OIG Web
site. Periodically—approximately every 5 years—OIG conducts an in-depth onsite review of each Unit to
evaluate its operations as related to the 12 performance standards and to assess compliance with laws,
HHS Office of Inspector General                                                                        Page 20
Medicaid Integrity Program Report | Fiscal Year 2013


regulations, and OIG policy guidance. OIG issued reports of onsite reviews of the following MFCUs
during FY 2013. The full reports are available on our Web site.

    Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review. OEI-06-12-00720. 2013 SEP.

    Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review. OEI-09-12-00220. 2013 APR.

    Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review. OEI-07-12-00510. 2013 JUN.

    Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review. OEI-09-12-00010. 2012 DEC.

    New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review. OEI-02-12-00180. 2012 OCT.

    New Jersey Medicaid Fraud Control Unit: 2013 Onsite Review. OEI-02-13-00020. 2013 SEP.

    South Carolina State Medicaid Fraud Control Unit: 2011 Onsite Review. OEI-09-11-00610. 2012 OCT.

    Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review. OEI-06-12-00370. 2013 APR.

Joint investigations with MFCUs
Following are examples of OIG’s joint investigations with MFCUs that reached conclusion in FY 2013.

California—Physician. According to court documents, Tustin Hospital paid marketers to recruit patients
and transport them to the facility. Dr. Kenneth Thaler admitted the patients; then he and the hospital
billed Medicare for inpatient services, even when such services were not medically necessary. Thaler
admitted that many of the recruited patients had been coached to recite false symptoms and that he
falsified medical records to justify the admissions of some patients. On average, Thaler admitted
approximately 60 patients per month to the hospital. Thaler was sentenced to 1 year and 1 day in prison
and ordered to pay about $11 million in restitution after pleading guilty to conspiracy to receive
kickbacks. This was a joint investigation with the Internal Revenue Service, the FBI, and the Bureau of
Medi-Cal Fraud and Elder Abuse.

California–Hospital chief financial officer. Vincent Rubio was Chief Financial Officer of a hospital in
Tustin, California. According to court documents, Rubio oversaw the issuance of checks to companies
owned by co-conspirators for the referral of recruited beneficiaries admitted to the hospital. The
hospital executed sham “consultant” contracts with these companies to conceal the fact that the
hospital was making kickback payments to them for the referrals. The hospital then billed Medicare and
Medi-Cal for hospital stays and related services provided to the recruited beneficiaries, including
admissions that were medically unnecessary. Medicare and Medi-Cal paid the hospital more than
$10.5 million in reimbursement for these false claims. Rubio was sentenced to 8 months of home
confinement and ordered to pay about $10.6 million in restitution after pleading guilty to charges of
conspiracy to pay kickbacks for patient referrals, causing an act to be done, and subscription to false tax
returns. This was a joint investigation with the Internal Revenue Service, the Federal Bureau of
Investigation (FBI), and the California MFCU.

Idaho—Optometrist. Christopher Card was a licensed optometrist who owned, managed, and provided
care at Total Vision, P.A. According to the plea agreement, Card fraudulently billed Medicaid, Medicare,
and other health care benefit programs for false diagnoses, including glaucoma, acquired color
deficiency (color blindness), tension headaches, macular degeneration, treatment of eye injuries, and
HHS Office of Inspector General                                                                   Page 21
Medicaid Integrity Program Report | Fiscal Year 2013


removal of foreign objects from the eye. Card also billed for testing that did not occur and for testing
results that were falsified or altered. Eighteen patients identified in the original indictment were
diagnosed by Card as having glaucoma or glaucoma-related conditions. All were subsequently examined
by other doctors, and only one patient was found to have glaucoma or glaucoma-related diseases. The
patients named in the original indictment represented only a fraction of those for whom Card falsely
billed health insurance companies. Card was sentenced to 3 years in prison and ordered to pay
$1 million in restitution and a $100,000 fine after pleading guilty to charges of executing a scheme to
defraud health care benefit programs. This was a joint investigation with the FBI, the Idaho Medicaid
Fraud and Program Integrity Unit, and the Railroad Retirement Board OIG.

Maine –Podiatrist. John Perry was a licensed podiatrist who owned and operated Atlantic Foot & Ankle,
P.A., in Portland, Maine. According to court records, Perry prescribed controlled substances, including
oxycodone, knowing that these substances were being further distributed by his co-conspirators. Perry
would charge up to $500 or more for each oxycodone prescription. Perry wrote prescriptions without
any medical purpose; in the names of people to whom he never provided medical care; and in exchange
for money and other controlled and illegal substances, including cocaine, for his personal use. Perry also
wrote prescriptions with no legitimate medical purpose outside his medical office, including at bars and
a strip club. Perry fabricated patient charts in his office to cover his improper prescriptions and then
submitted false claims for these prescriptions to MaineCare. Perry was sentenced to 8 years of
imprisonment and ordered to pay $7,580 in restitution and a $900 fine after pleading guilty to charges of
conspiracy to possess with intent to distribute oxycodone; health care fraud, aiding and abetting; and
unlawful distribution of oxycodone. This was a joint investigation with the Drug Enforcement
Administration, the FBI, and the Maine MFCU.

Other Medicaid-related criminal and civil actions
The following are other examples of FY 2013 criminal and civil actions involving Medicaid. Medicaid
investigations sometimes involve other programs as well, such as Medicare, and may involve multiple
investigative resources, such as FBI and State and local enforcement entities.

Connecticut—Drug abuse counselor. According to published reports, Alan Bradley was a certified
alcohol and drug abuse counselor who obtained the Medicaid identification numbers of various
Medicaid clients and used the identification numbers to submit hundreds of claims to Connecticut’s
Department of Social Services. The claims alleged that Bradley provided 75- to 80-minute individual
psychotherapy sessions to these Medicaid clients at his office in Norwalk, Connecticut. However,
hundreds of the counseling sessions never occurred, and during the time for which he billed Medicare
for many of them, Bradley was actually living and attending school in Florida. Bradley was sentenced to
2 years in prison and ordered to pay nearly $152,000 in restitution after pleading guilty to charges of
health care fraud. In addition to receiving his sentencing, Bradley was suspended from participating in
the Medicaid program.

District of Columbia—Owner/officer of advocacy center. According to the indictment, Jacqueline
Wheeler was part-owner and chief executive officer of the Health Advocacy Center, Inc. (HAC), in
Washington, DC, which purportedly was an advocate for improving health care delivery to the
community. About October 2002, HAC entered into an agreement with District of Columbia Medicaid to
provide health care services to DC Medicaid beneficiaries. Wheeler owned two apartments that were
rented by HAC patients who had alcohol and/or drug addictions. Wheeler’s employees transported
many of the patients to HAC, where they often slept, watched television, and occasionally received drug
HHS Office of Inspector General                                                                   Page 22
Medicaid Integrity Program Report | Fiscal Year 2013


and alcohol counseling. From these visits, Wheeler submitted more than $6 million in claims to D.C.
Medicaid for manual therapy and other services that did not meet Medicaid requirements for payment.
Wheeler was sentenced to 6 years and 3 months of incarceration and ordered to pay about $3.1 million
in restitution after being convicted of charges related to health care fraud.

Florida—Community mental health centers. Health Care Solutions Network, Inc. (HCSN), operated
community mental health centers in Florida (HCSN-FL) and North Carolina (HCSN-NC). These facilities
allegedly provided partial hospitalization program (PHP) services to individuals suffering from mental
illness. According to court documents, HCSN-FL personnel fabricated patient medical records to support
false and fraudulent billing to Medicare and to Florida Medicaid. A majority of the fabricated notes were
created at the HCSN-FL facility for patients admitted to the PHP HCSN-NC facility. The defendants either
submitted, or caused the submission of, about $56 million in false and fraudulent claims. As of FY 2013,
12 defendants had been sentenced for their roles in the health care fraud scheme—Wondera Eason,
Paul Layman, Dana Gonzalez, Gema Pampin, Alexandra Haynes, Armando Gonzalez, John Theon, Daniel
Martinez, Serena Joslin, Ivon Perez, Raymond Rivero, and Sarah Keller were sentenced to a combined
70 years of incarceration and ordered to pay $186 million in joint and several restitution.

Illinois—Bogus personal care services assistant. According to the indictment, Cynthia Harmon and
Daniel Geary defrauded the State of Illinois Medicaid program by falsely claiming and taking payments
for personal assistant services that were not actually performed. Between February and March 2012,
Geary purportedly provided personal care services to Harmon, a Medicaid recipient, at her home.
However, Harmon was incarcerated during the time that the services were claimed to have been
provided. Geary completed home services time sheets falsely stating that he performed 44.5 hours of
personal assistant services for Harmon; he then billed Medicaid for the hours and received $821 in
reimbursement. Geary and Harmon were each sentenced to time served (4 months and 25 days for
Harmon and 4 months and 11 days for Geary) and ordered to pay $421 after pleading guilty to false
statements relating to health care matters.

Indiana—Owner of day care service. Carol Woodard owned Gideon’s Gate, which purportedly provided
tutoring and day care services to indigent and school-age children. Woodard admitted that she executed
a scheme to defraud Indiana Medicaid by filing more than 2,400 illegitimate reimbursement claims for
psychological services that she had not performed. Woodard conspired with a previously convicted
defendant, who provided Medicaid recipients’ personal identifiers to Woodward, which she then used in
false billings. Woodard was sentenced to 6 years and 8 months of incarceration and ordered to pay
more than $1.9 million in restitution after pleading guilty to health care fraud.

Iowa—Dentist. Dennis Schuller practiced dentistry in Cedar Rapids, Iowa. According to court records,
Schuller allegedly billed Medicaid from August 2008 through June 2010 for exams performed by a
hygienist as though a dentist had performed the exams. He billed for medically unnecessary
procedures—for individual x-rays when whole mouth x-rays had been performed, for occlusal guards
(mouth guards) that were not medically necessary, and for the use of desensitizing medication on
patients when this medication was not medically necessary. Schuller agreed to pay $100,000 to settle
allegations that he submitted, or caused to be submitted, false claims for payment to Medicaid.

Michigan—Pharmacy owner. According to the indictment, Babubhai Patel was a licensed pharmacist
who either owned or controlled 26 pharmacies in Michigan. Patel concealed his ownership and control
over many of his pharmacies through the use of straw owners. Patel offered and paid kickbacks, bribes,
and other inducements to prescribers in exchange for their writing fraudulent prescriptions for patients
HHS Office of Inspector General                                                                   Page 23
Medicaid Integrity Program Report | Fiscal Year 2013


with Medicare, Medicaid, and private insurance and directing the patients to fill their prescriptions at
one of Patel’s pharmacies. Patel and his pharmacists billed Medicare and other insurers for dispensing
the medications, despite the fact that the medications were medically unnecessary and/or had not been
provided. Since January 2009, Patel’s pharmacies dispensed approximately 250,000 doses of Oxycontin,
4.6 million doses of Vicodin, 1.5 million doses of Xanax, and 6,100 pint bottles of codeine cough syrup.
Patel’s pharmacies falsely billed Medicare and Medicaid approximately $57.8 million for medications
purportedly provided to beneficiaries over the course of the scheme. Patel was sentenced to 17 years in
prison and ordered to pay $18.9 million in restitution, joint and several. By the end of FY 2013, 26
defendants had been convicted for their roles in the widespread scheme to defraud Medicare and
Medicaid. Nineteen additional defendants were awaiting sentencing.

Minnesota—Beneficiary. James and Cynthia Hood fraudulently applied for several types of government
benefits, including Medicaid and Social Security. According to court records, the Hoods, along with their
three children, moved to Minnesota from Louisiana in 2005 after Hurricane Katrina. From January 2006
to April 2011, the couple stole approximately $480,000 in State and Federal Medicaid benefits and Social
Security benefits. During the application process for these benefits, Cynthia Hood made false
statements, including that she did not have any assets and that she lived separately from her husband.
However, investigators determined that she had substantial assets and lived with her husband James
Hood and that James Hood had investments worth over $11 million. James Hood was sentenced to 3
years and 6 months of imprisonment after pleading guilty to charges of theft of public money, health
care fraud, and mail fraud. Cynthia Hood was sentenced to 3 years of probation after pleading guilty to
false statements for use in determining rights to a Social Security benefit and mail fraud. Both were
ordered to pay $483,312 in restitution, joint and several, and were fined $500,000.

New York—Mental health facility. Westchester County Health Care Corporation (WCHCC) WCHCC
operates the freestanding mental health facility Westchester Behavioral Health Center (BHC). From
August 2001 through June 2010, WCHCC allegedly submitted false certifications to Medicaid stating that
claims for services at BHC complied with applicable regulations. WCHCC allegedly billed for professional
services by uncredentialed nurse practitioners; billed for services rendered without required progress
notes, physician signatures, or other supporting records; billed for hospital stays without the required
certification or recertification of medical necessity; routinely failed to collect copayments from
psychiatric inpatients to induce use of services; and offered potential kickbacks to private-practice
physicians in return for patient referrals. The investigation also revealed that BHC allegedly billed
Medicaid for psychiatric services without creating or maintaining treatment plans and progress notes.
WCHCC agreed to pay $7 million to resolve allegations that it violated the FCA.

Texas—State Employee fraud. The investigation revealed that Texas Medicaid’s Medical Transportation
Program (MTP) employees obtained the Medicaid numbers and personally identifiable information of
Medicaid recipients, including friends and family members, to submit false MTP claims for transportation
services that had not been provided or were unnecessary. According to the indictment, the defendants
fraudulently obtained reimbursement checks, cashed the checks, and either kept the money or divided it
among the co-conspirators. Several other defendants were previously sentenced in this case. In total,
19 defendants were ordered to pay more than $247,000 in restitution and fines and were sentenced to a
combined 6 years of incarceration. Juanita Leyva, Arlene Rodriguez, Edward Devally, Leticia Orosco,
Michelle Aguilar, Patricia Cortez, and Loretta Cortez all were sentenced on charges related to the
scheme. As a result of the investigation, a new MTP director was appointed, the program was
restructured, and new policies were put in place.
HHS Office of Inspector General                                                                     Page 24
Medicaid Integrity Program Report | Fiscal Year 2013


Texas—Beneficiary/recruiter fraud. According to court documents, Robert Baker was a Medicare
beneficiary who, from March 2007 through April 2012, visited Adom Rehabilitation Services, Inc., and
Healthcare and Wellness Medical Clinic, Inc. These clinics purportedly provided medical services, such as
physical therapy, diagnostic testing, and mental health services. However, Baker did not have a medical
need for the services; rather he would allow his Medicare benefits to be billed in exchange for cash.
Baker also was paid cash to recruit Medicare and Medicaid beneficiaries to the clinics. The owners and
operators of the medical clinics then submitted claims to Medicare for payment using Medicare
information from Baker and his co-conspirators. The owner and operator of the clinics, along with two
clinic employees, were previously sentenced for their roles in the scheme. Baker was sentenced to 1
year and 6 months of incarceration and ordered to pay $173,653 in restitution, joint and several, after
pleading guilty to conspiracy to violate the anti-kickback statute.

Texas—Bogus physical therapist. According to court documents, Godwin Nzeocha worked for City
Nursing Services of Texas, Inc., where he signed his name as the provider of physical therapy services on
City Nursing patient files, including blank treatment data forms, progress notes, and daily physical
therapy records. However, Nzeocha was not licensed, trained, or otherwise qualified to provide physical
therapy to patients. During the time Nzeocha worked at City Nursing, the company billed Medicare and
Medicaid approximately $3 million for physical therapy services that had not been provided. Nzeocha,
who was an OIG Most Wanted Fugitive, was arrested by Nigerian authorities in 2011 and extradited to
the United States in June 2012 to face health care fraud charges. Nzeocha was sentenced to 9 years and
1 month of incarceration and ordered to pay more than $26 million in restitution, joint and several, after
pleading guilty to charges of conspiracy to commit health care fraud and money laundering.

Exclusions from program participation
OIG may exclude individuals and entities from participation in Medicare, Medicaid, and all other Federal
health care programs for many reasons, some of which include program-related convictions, patient
abuse or neglect convictions, licensing board disciplinary actions, or other actions that pose a risk to
beneficiaries or programs. (Social Security Act, § 1128, § 1156, and other statutes.) Exclusions are
generally based on referrals from Federal and State agencies. We work with these agencies to ensure the
timely referral of convictions and licensing board and administrative actions. In FY 2013, OIG excluded
3,214 individuals and entities from participation in Federal health care programs. Searchable exclusion
lists are available on OIG’s Web site at: http://exclusions.oig.hhs.gov/

The following are examples of program exclusions in FY 2013.

Florida—Chiropractor. Joseph Burrell Wagner, Jr., a chiropractor, billed, and caused bills to be sent to,
Medicare, Medicaid, and private insurers for services that were rendered by him or his staff as though
they were medical doctors. Wagner used the name of a medical doctor to fraudulently bill for services
that had never been performed or provided by the medical doctor. In addition, he conspired with others
to distribute and dispense schedule III and IV controlled substances. As a licensed chiropractor, Wagner
was not permitted to prescribe, distribute, or dispense controlled substances. As a result of these
crimes, Wagner was sentenced to 15 years and 8 months of incarceration and ordered to pay more than
$2 million in restitution. The Florida Board of Chiropractic Medicine ordered the relinquishment of
Wagner’s license to practice as a chiropractor. Wagner was excluded for a minimum period of 40 years
on the basis of his convictions for health care fraud; conspiracy to illegally distribute and dispense, and
cause to be distributed and dispensed, schedule III and IV controlled substances; and aiding and abetting
transactional money laundering.
HHS Office of Inspector General                                                                    Page 25
Medicaid Integrity Program Report | Fiscal Year 2013


Florida—Pain clinic owner/operator. From November 2007 to about September 2011, Juan De Dios
Gomez owned and operated a pain clinic for the purpose of obtaining false prescriptions for oxycodone
and oxymorphone for beneficiaries of Medicare, Medicaid, and private health care prescription drug
insurance plans. The drugs were not medically necessary. Gomez would offer kickbacks, bribes, and
inducements to beneficiary recruiters so they would bring beneficiaries to his pain clinic. The court
sentenced Gomez to more than 16 years of incarceration and ordered him to pay $15 million in
restitution. Gomez was excluded for a minimum of 50 years on the basis of his convictions for
conspiracy to possess with intent to distribute oxycodone and oxymorphone, attempt to possess with
intent to distribute oxycodone, and conspiracy to commit health care fraud.

Louisiana—Clinic owner. Vadim Mysak, was an owner, manager, and technician of several medical
clinics. Mysak and his co-conspirators were involved in a scheme to defraud Medicare and Medicaid
through fraudulent billing for diagnostic tests that were not medically necessary or had not been
performed. On the basis of this scheme, Mysak was convicted on charges of conspiracy to commit
health care fraud and conspiracy to commit money laundering. He was sentenced to 4 years and 1
month of incarceration and ordered to pay more than $6 million in restitution, joint and several. Mysak
was excluded for a minimum period of 25 years on the basis of his conviction. Mysak was also excluded
from participation in Medicaid by the Louisiana Department of Health and Hospitals.

Washington—Physician. Alfred Chan was a medical doctor who specialized in hematology and oncology.
He and his wife Judy operated the Alfred H. Chan, M.D., P.C., Clinic in Lakewood, Washington, until the
clinic closed in February 2011. According to court documents, the Chans allegedly defrauded Medicare,
Medicaid, and other Federal health care programs by intentionally submitting false and inaccurate claims
for medications and services. Specifically, the Chans allegedly billed for quantities of drugs greater than
those actually administered to patients, overstated chemotherapy drug infusion times, and double-billed
for medications. They also falsified the patient charts to support the fraudulent billing. Chan agreed to
pay $3.1 million to resolve allegations under the FCA. As a result of this conduct, Chan agreed to be
excluded for a period of 15 years. In January 2012, Chan’s license to practice as a physician and surgeon
in the State of Washington was indefinitely suspended.
HHS Office of Inspector General                        Page 26
Medicaid Integrity Program Report | Fiscal Year 2013




                                http://oig.hhs.gov
HHS Office of Inspector General                                        Page 27
Medicaid Integrity Program Report | Fiscal Year 2013




Appendixes
Appendix A – FY 2013 Medicaid Audit and Evaluation Reports

Appendix B – OIG Priority Recommendations From Previous Fiscal Years

Appendix C – FY 2014 Medicaid Work Plan
HHS Office of Inspector General                        Page 28
Medicaid Integrity Program Report | Fiscal Year 2013




                                http://oig.hhs.gov
HHS Office of Inspector General                                                                           Page 29
Medicaid Integrity Program Report | Fiscal Year 2013



Appendix A


Fiscal Year 2013 audit and
evaluation reports
The majority of reports listed in this appendix are available on the Office of Inspector General (OIG) Web
site at https://oig.hhs.gov. To access the reports, query on the report number shown after each title.
Reports not posted to the Web site may be requested through the Freedom of Information Act (FOIA).
To make a request under FOIA, please use the following link: https://oig.hhs.gov/foia/submit.asp.

Medicaid hospital audits
    New Jersey Department of Human Services Claimed Medicaid Disproportionate Share Hospital Payments to
    Five Hospitals That Did Not Meet Federal Eligibility Requirements, A-02-09-01017.

    New York Claimed Hospital-Based Continuing Day Treatment Services That Were Not in Compliance With
    Federal and State Requirements, A-02-11-01038.

    North Carolina Medicaid Overpaid Hospitals for Some Inpatient Services That Medicare Paid, A-04-11-06137.

    Georgia—Acute Care Hospitals in Georgia Did Not Always Reconcile Invoice Records With Credit Balances and
    Report the Associated Medicaid Overpayments to the State Agency, A-04-12-04021.

    Wisconsin Claimed Medicaid Reimbursement for High-Dollar Inpatient Services That Were Unallowable,
    A-05-11-00037.

    Indiana Claimed Medicaid Reimbursement for High-Dollar Inpatient Services That Were Unallowable,
    A-05-11-00040.

    Indiana Improperly Claimed Federal Reimbursement for Most Medicaid Inpatient Psychiatric Hospital Service
    and Disproportionate Share Hospital Payments to Evansville Psychiatric Children’s Center, A-05-12-00040.

    Indiana Improperly Claimed Federal Reimbursement for All Reviewed Medicaid Inpatient Psychiatric Hospital
    Service Payments to Evansville State Hospital, A-05-12-00041.

    Indiana Improperly Claimed Federal Reimbursement for All Reviewed Medicaid Inpatient Psychiatric Hospital
    Service Payments to Logansport State Hospital, A-05-12-00042.

    Missouri Improperly Claimed Federal Reimbursement for Most Reviewed Medicaid Inpatient Psychiatric
    Hospital Service and Disproportionate Share Hospital Payments to Hawthorn Children’s Psychiatric Hospital,
    A-05-12-00050.

    Oklahoma Improperly Claimed Federal Reimbursement for Most Reviewed Medicaid Inpatient Psychiatric
    Hospital Service and Disproportionate Share Hospital Payments to Children’s Recovery Center, A-05-12-00052.

    Missouri Incorrectly Claimed Federal Reimbursement for Inpatient Claims With Sterilization and Delivery
    Procedures for Calendar Years 2009 and 2010, A-07-12-01121.
HHS Office of Inspector General                                                                             Page 30
Medicaid Integrity Program Report | Fiscal Year 2013



Medicaid home, community, and nursing home care audits
    Massachusetts Medicaid Payments to Millbury Health Care Center Did Not Always Comply With Federal and
    State Requirements, A-01-12-00010.

    Rhode Island’s Managed Care Contract Settlements With Neighborhood Health Plan of Rhode Island Did Not
    Always Comply With Federal and State Requirements, A-01-12-00011.

    Massachusetts Medicaid Payments to Essex Park Rehabilitation and Nursing Center Did Not Always Comply
    With Federal and State Requirements, A-01-12-00015.

    Massachusetts Medicaid Payments to Weymouth Health Care Center Did Not Always Comply With Federal and
    State Requirements, A-01-12-00016.

    Massachusetts Medicaid Payments to Healthbridge Management Did Not Always Comply With Federal and
    State Requirements, A-01-13-00001.

    Medicaid Hospice General Inpatient Payments to Home and Hospice Care of Rhode Island Did Not Always Meet
    Federal and State Requirements, A-01-13-00002.

    Massachusetts Medicaid Payments to Golden Living Centers Did Not Comply with Federal and State
    Requirements, A-01-13-00007.

    New York Improperly Claimed Medicaid Reimbursement for Some Home Health Services Claims Submitted by
    Certified Home Health Agencies in New York City, A-02-10-01022.

    New York State Improperly Claimed Medicaid Reimbursement for Some Home Health Services Claims
    Submitted by Certified Home Health Agencies, A-02-11-01008.

    Maryland Generally Complied With Requirements for Medicaid Payments Made to Multi-Medical Center for
    Nursing Facility Services, A-03-11-00151.

    Maryland Improperly Claimed Personal Care Services Provided Under Its Medicaid Home and Community-
    Based Services Waiver for Older Adults, A-03-11-00201.

    West Virginia Improperly Claimed Some Personal Care Services Under Its Medicaid State Plan, A-03-11-00204.

    Virginia—Nursing Facilities in Virginia Generally Reconciled Account Records With Credit Balances and
    Reported the Associated Medicaid Overpayments to the State Agency, A-03-11-00211.

    Wisconsin Improperly Claimed Federal Medicaid Reimbursement for Most Residential Care Center Payments,
    A-05-07-00036.

    Illinois Did Not Always Properly Claim Medicaid Reimbursement for Hospice Claims, A-05-12-00029.

    Louisiana—Review of Louisiana Medicaid Personal Care Services Provided by Immaculate Heart of Mary-PCS
    Audit, A-06-09-00106.

    Missouri—Nursing Facilities in Missouri Did Not Reconcile Invoice Records With Credit Balances and Report the
    Associated Medicaid Overpayments to the State Agency, A-07-11-03169.

    Missouri Claimed Federal Reimbursement for Unallowable Personal Care Services Claims Submitted by The
    Whole Person, Incorporated, A-07-11-03170.
HHS Office of Inspector General                                                                              Page 31
Medicaid Integrity Program Report | Fiscal Year 2013


    Washington State Claimed a Small Amount of Unallowable Medicaid Reimbursement for Home Health Services
    That Exceeded the Maximum Allowable Number of Reimbursable Visits, A-09-12-02056.

Medicaid prescription drug claims audits
    Oklahoma Complied With the Federal Medicaid Requirements for Billing Manufacturers for Rebates for
    Physician-Administered Drugs, A-06-12-00059.

    California Improperly Claimed Enhanced Federal Reimbursement for Medicaid Family Planning Drugs and
    Supplies Provided in San Diego County, A-09-12-02077.

Other Medicaid services audits
    New Hampshire Did Not Always Correctly Claim Medicaid Payments for School-Based Transportation Services,
    A-01-11-00008.

    Maine Improperly Claimed Medicaid Payments for School-Based Health Services Submitted by Portland School
    Department, A-01-11-00011.

    Massachusetts Generally Implemented Recommendations From Prior Review of Claims for Hospital Outpatient
    Clinical Laboratory Services, A-01-12-00005.

    Connecticut Generally Implemented Recommendations From Prior Review of Medicaid Payments for Clinical
    Laboratory Services, A-01-12-00014.

    New York Improperly Claimed Medicaid Reimbursement for Family-Based Treatment Rehabilitation Services,
    A-02-10-01024.

    New York’s Claims for Medicaid Services Provided Under Its Traumatic Brain Injury Waiver Program Did Not
    Comply With Certain Federal and State Requirements, A-02-10-01043.

    New York State Manufacturer Rebate Program Significantly Reduced Medicaid Costs for Home Blood-Glucose
    Test Strips But Could Achieve Additional Reductions, A-02-11-01042.

    New Jersey Medicaid Program Could Achieve Savings By Reducing Home Blood Glucose Test Strip Prices,
    A-02-12-01010.

    Maryland Claimed Costs for Unallowable Room and Board and Other Residential Habilitation Costs Under Its
    Community Pathways Waiver Program, A-03-12-00203.

    North Carolina—Noninstitutional Providers in North Carolina Did Not Reconcile Invoice Records With Credit
    Balances and Report the Associated Medicaid Overpayments to the State Agency, A-04-11-04016.

    Florida Generally Ensured That Providers Complied With Selected State Durable Medical Equipment Enrollment
    Requirements, A-04-12-07034.

    Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities,
    A-04-12-08016.

    Ohio Medicaid Program Could Significantly Lower Payment Rates for Selected Durable Medical Equipment and
    Supplies, A-05-12-00038.
HHS Office of Inspector General                                                                               Page 32
Medicaid Integrity Program Report | Fiscal Year 2013


    Arkansas Inappropriately Received Medicaid Family Planning Funding for Federal Fiscal Years 2006 Through
    2010, A-06-11-00022.

    Missouri Did Not Always Correctly Claim Costs for Medicaid Family Planning Sterilization Procedures for
    Calendar Years 2009 and 2010, A-07-12-01117.

    Missouri Claimed Unallowable Medicaid Payments for Individuals With Intellectual and Developmental
    Disabilities in Intermediate Care Facilities, A-07-12-03180.

    California Made Unallowable Medicaid Payments for Items and Services Furnished, Ordered, or Prescribed by
    Excluded Providers, A-09-11-02016.

    Arizona Improperly Claimed Federal Reimbursement for Medicaid School-Based Administrative Costs, A-09-11-
    02020.

    California Improperly Claimed Enhanced Federal Reimbursement for Medicaid Family Planning Services
    Provided in San Diego County, A-09-11-02040.

    Hawaii Did Not Adequately Monitor Implementation of Some Risk-Sharing Contract Provisions for the QUEST
    Expanded Medicaid Managed Care Program, A-09-11-02054.

    California—Noninstitutional Providers in California Did Not Always Reconcile Invoice Records With Credit
    Balances and Refund to the State Agency the Associated Medicaid Overpayments, A-09-12-02047.

Medicaid administration audits
    New Jersey’s Medicaid Expenditure Claim Was Supported by Actual Recorded Expenditures, A-02-10-01013.

    New Jersey Did Not Always Claim Medicaid Reimbursement for Medicare Part B Premiums in Accordance with
    Federal Requirements, A-02-10-01025.

    New York State Made Unallowable Medicaid Managed Care Payments For Beneficiaries Assigned Multiple
    Medicaid Identification Numbers, A-02-11-01006.

    New York Complied With Federal Requirements to Report Federal Overpayment Collections for the Quarter
    Ended September 30, 2011, A-02-12-01020.

    Pennsylvania Claimed Unallowable Medicaid Administrative Costs for the Regional Housing Coordinator
    Initiative, A-03-11-00210.

    Florida Claimed Some Medicaid Administrative Costs That Did Not Comply With Program Requirements,
    A-04-10-00076.

    Florida Medicaid: Millions in Overpayments Not Refunded, A-04-11-08007.

    Kentucky Substantially Met Money Follows the Person Program Requirements, A-04-12-06152.

    Alabama Received Millions in Unallowable Performance Bonus Payments Under the Children’s Health
    Insurance Program Reauthorization Act, A-04-12-08014.

    The Centers for Medicare & Medicaid Services Collected the Majority of Medicaid Overpayments but Millions
    Remain Uncollected, A-05-11-00071.
HHS Office of Inspector General                                                                           Page 33
Medicaid Integrity Program Report | Fiscal Year 2013


    Texas Did Not Always Comply With Federal and State Requirements Regarding the Medicare Buy-In Program,
    A-06-10-00070.

    Arkansas Generally Supported Its Claim for Federal Medicaid Reimbursement, A-06-10-00098.

    Iowa Did Not Properly Pay Some Medicare Part A and Part B Deductibles and Coinsurance, A-07-12-03178.

Medicaid information technology audits
    Audit of IT Controls for USB devices at Ochsner Medical Center, A-06-12-00017.

    Audit of IT Controls for USB devices at Saint Francis Hospital, A-06-12-00020.

    Review of General Controls at North Dakota Department of Human Services, A-07-11-00368.

    Audit of General Controls for Medicaid Eligibility Determinations and Claims Processing at the North Dakota
    Information Technology Department, A-07-12-00372.

    Audit of IT Controls for USB Devices at Mercy Health, A-07-12-00400.

    Audit of IT Controls for USB Devices at Cox Health, A-07-12-00401.

    Audit of IT Controls for USB Devices at BJC HealthCare, A-07-12-00402.

    Review of LA Care's information system general controls over its Medi-Cal managed-care claims processing
    system, A-09-12-03001.

    IT Audit - Audit of IT controls over USB devices at Georgetown Hospital, A-18-12-30070.

State Medicaid Fraud Control Unit (MFCU) evaluations
    Arkansas Medicaid Fraud Control Unit: 2013 Onsite Review, OEI-06-12-00720.

    Idaho State Medicaid Fraud Control Unit: 2012 Onsite Review, OEI-09-12-00220.

    Illinois State Medicaid Fraud Control Unit: 2012 Onsite Review, OEI-07-12-00510.

    Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review, OEI-09-12-00010.

    New Hampshire State Medicaid Fraud Control Unit: 2012 Onsite Review. OEI-02-12-00180.

    New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review, OEI-02-13-00020.

    South Carolina State Medicaid Fraud Control Unit: 2012 Onsite Review, OEI-09-11-0061.

    Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review, OEI-06-12-00370.

Other program evaluation reports
    Early Outcomes Show Limited Progress for the Transformed Medicaid Statistical Information System,
    OEI-05-12-00610.

    Analyzing Changes to Medicaid Federal Upper Limit Amounts, OEI-03-11-00650.
HHS Office of Inspector General                                                                         Page 34
Medicaid Integrity Program Report | Fiscal Year 2013


    Medicaid Drug Pricing in State Maximum Allowable Cost Programs, OEI-03-11-00640.

    Medicaid Third-Party Liability Savings Increased, But Challenges Remain, OEI-05-11-00130.

    Medicaid DMEPOS Costs May Be Exceeding Medicare Costs in Competitive Bidding Areas, OEI-06-13-00470.

    Home and Community-Based Services in Assisted Living Facilities, OEI-09-08-00360.

    Some States Improperly Restrict Eligibility for Medicaid Mandatory Home Health Services, OEI-07-13-00060.

    Most States Anticipate Implementing Eligibility and Enrollment Requirements by 2014, OEI-07-10-00530.
HHS Office of Inspector General                                                                           Page 35
Medicaid Integrity Program Report | Fiscal Year 2013



Appendix B

Priority Medicaid recommendations
from previous fiscal years
The priority Medicaid recommendations below are carried forward from final reports issued prior to
fiscal year (FY) 2013. The full reports are available on the Office of Inspector General's (OIG) Web site at
www.oig.hhs.gov. The recommendations were designated as priorities in OIG’s March 2014
Compendium of Priority Recommendations, which covers all HHS programs through FY 2013 and is also
available on the OIG Web site at http://oig.hhs.gov/reports-and-publications/compendium/.

Federal share of Medicaid—Ensure that State claims and practices do not inappropriately
inflate Federal reimbursements.
Key OIG Report                       Specific Recommendations
Review of Medicaid Enhanced          •   The Centers for Medicare & Medicaid Services (CMS) should provide
Payments to Local Public                 States with definitive guidance for calculating the Federal upper
Providers and the Use of                 payment limit (UPL), which should include using facility-specific UPLs
Intergovernmental Transfers.             that are based on actual cost report data and
A-03-00-00216. 2001 SEP.
                                     •   require that the return of Medicaid payments by a county or local
                                         government to the State be declared a refund of those payments and
                                         thus be used to offset the Federal share generated by the original
                                         payment.


Medicaid drug pricing—Assist States to better align drug reimbursements with pharmacy
acquisition costs.
Key OIG Reports                      Specific Recommendations
Review of Drug Costs to              •   CMS should provide the results of this review to States for their use
Medicaid Pharmacies and Their            when they consider changes to their pharmacy reimbursement
Relation to Benchmark Prices.            methodologies, including those for single-source drugs, brand-name
A-06-11-00002. 2011 OCT.                 multiple-source drugs, and generic multiple-source drugs.

Replacing Average Wholesale          •   CMS should develop a national benchmark that accurately estimates
Price: Medicaid Drug Payment             acquisition costs and encourage States to use it in determining Medicaid
Policy. OEI-03-11-00060.                 reimbursement for prescription drugs.
2011 JUL.

Additional Analyses of the Actual    •   CMS should encourage States to adopt a multitiered payment system to
Acquisition Cost of Prescription         bring pharmacy reimbursement more in line with the actual acquisition
Drug Products. A-06-02-00041.            cost of drug products.
2002 SEP.
HHS Office of Inspector General                                                                            Page 36
Medicaid Integrity Program Report | Fiscal Year 2013


Ensure that Medicaid Information Systems are fully functional.
Key OIG Report                       Specific Recommendation
Medicaid Managed Care                •   CMS should enforce existing Federal requirements that States include
Encounter Data: Collection and           encounter data in Medicaid Statistical Information System (MSIS)
Use. OEI-07-06-00540.                    submissions.
2009 MAY.


Address Medicaid managed care fraud and abuse concerns.
Key OIG Report                       Specific Recommendations
Medicaid Managed Care: Fraud         •   CMS should require that State contracts with managed care entities
and Abuse Concerns Remain                (MCEs) include methods to verify with beneficiaries whether services
Despite Safeguards.                      billed by providers were received and
OEI-01-09-00550. 2011 DEC.
                                     •   update guidance to reflect concerns expressed by MCEs and States.


Medicaid home- and community-based care settings—Ensure that service providers comply
with quality and safety requirements.
Key OIG Reports                      Specific Recommendations
Medicaid—Oversight of Quality        •   CMS should provide additional guidance to states to help ensure that
of Care in Medicaid Home and             they meet the assurances,
Community-Based Services
Waiver Programs.                     •   require states that do not meet one or more assurances to develop
OEI-02-08-00170. 2012 JUN.               corrective action plans,

                                     •   require at least one onsite visit before a waiver is renewed and develop
                                         detailed protocols for such visits, and

                                     •   make information about state compliance with the assurances available
                                         to the public.


Prevention—Ensure that States improve utilization of preventive screening services for
eligible children.
Key OIG Report                       Specific Recommendations
Most Medicaid Children in Nine       •   CMS should require States to report vision and hearing screenings,
States Are Not Receiving All
Required Preventive Screening        •   collaborate with States and providers to develop effective strategies to
Services. OEI-05-08-00520.               encourage beneficiary participation in screenings,
2010 MAY.
                                     •   collaborate with States and providers to develop education and
                                         incentives for providers to encourage complete medical screenings, and

                                     •   identify and disseminate promising State practices for increasing
                                         children’s participation in screenings and providers’ delivery of complete
                                         medical screenings.
HHS Office of Inspector General                                                                   Page 37
Medicaid Integrity Program Report | Fiscal Year 2013



Appendix C

Medicaid projects in
OIG’s FY 2014 Work Plan
The projects below represent the objectives of work in progress and planned new starts for fiscal year
(FY) 2014. The objectives were extracted from the Office of Inspector General's (OIG) FY 2014 Work
Plan, published in January 2014. Pertinent context information and citations for each project are
available in the complete Work Plan, which is available on OIG’s Web site at:

                http://oig.hhs.gov/reports-and-publications/workplan/index.asp#current.

Medicaid Prescription Drug Reviews
•   States' use of Medicaid drug utilization review to reduce the inappropriate
    dispensing of opioids
    Compliance With Requirements. We will review the education and enforcement actions States have
    taken on the basis of information generated by their drug utilization review (DUR) programs related
    to inappropriate dispensing and potential abuse of prescription opiates. (OEI; 05-13-00550;
    expected issue date: FY 2014; work in progress)

•   States’ methods for resolving rebate disputes with manufacturers
    Compliance With Requirements—We will review the causes of and resolutions to Medicaid rebate
    disputes with manufacturers and the methods States use to resolve them. (OEI; 05-11-00580;
    expected issue date: FY 2014; work in progress)

•   Manufacturer compliance with AMP reporting requirements
    Compliance With Requirements. We will review manufacturer compliance with average
    manufacturer price (AMP) reporting requirements and determine what percentage of manufacturers
    complied with the requirements. We will also determine whether stepped-up enforcement actions
    by the Centers for Medicare & Medicaid Services (CMS) and OIG are reflected in increased
    compliance by manufacturers. (OEI; 03-14-00150; expected issue date: FY 2015; work in progress)

•   States’ collection and reporting of rebates
    Compliance With Requirements. We will determine whether the increased amount of manufacturer
    rebates for brand-name and generic drugs were collected by States and reported to the Federal
    Government, as required. We will also determine the amount of supplemental drug rebates that
    States collected during a selected period. (OEI; 03-12-00520; expected issue date: FY 2014; work in
    progress; Affordable Care Act)
HHS Office of Inspector General                                                                    Page 38
Medicaid Integrity Program Report | Fiscal Year 2013


•   Rebates for new formulations of existing drugs
    Compliance With Requirements. We will review drug manufacturers’ compliance with Medicaid
    drug rebate requirements for drugs that are new formulations of existing drugs. We will also
    determine whether manufacturers have correctly identified all of their drugs that are subject to a
    recent change in law. (OAS; W-00-14-31451; various reviews; expected issue date: FY 2015;
    new start; Affordable Care Act)

•   States collection of rebates on physician-administered drugs
    Compliance With Requirements. We will determine whether States have established adequate
    accountability and internal controls for collecting Medicaid rebates on physician-administered drugs.
    We will assess States’ processes for collecting national drug code information on claims for
    physician-administered drugs and subsequent processes for billing and collecting rebates.
    (OAS; W-00-12-31400; W-00-13-31400; W-00-14-31400; various reviews; expected issue date:
    FY 2014; work in progress)

•   Medicaid payments for multiuse vials of Herceptin (new)
    State Claims—We will review States’ claims for the Federal share of Medicaid payments for the drug
    Herceptin, which is used to treat breast cancer, to determine whether providers properly billed the
    States for the drug. We will determine whether providers’ claims to States were complete and
    accurate and were billed in accordance with the regulations of the selected States. (OAS;
    W-00-14-31476; various reviews; expected issue date: FY 2014; new start)

•   Atypical antipsychotic drugs prescribed for children in Medicaid
    Quality of Care and Safety. We will determine the extent to which Medicaid claims for atypical
    antipsychotic drugs were for treatment of children aged 18 years and younger. We will determine,
    on the basis of medical record reviews, the extent to which the atypical antipsychotic drug claims
    were for uses and indications not listed in one or more of the approved drug compendia. We will
    also determine the extent to which the medical reviews identified concerns about the treatment of
    the children with the prescribed drugs related to dosage, duration of treatment, indications for use,
    monitoring, side effects, reactions to combinations of drugs (polypharmacy), and patient age. (OEI;
    07-12-00320; expected issue date: FY 2014; work in progress)

Home Health Services and Other Community–Based Care
•   Home health services—provider and beneficiary eligibility
    Billing and Payments. We will review home health agency (HHA) claims to State Medicaid programs
    to determine whether the billing providers met applicable criteria to provide home health services
    to Medicaid beneficiaries. We will also determine whether the beneficiaries met the criteria to
    receive such services. (OAS; W-00-12-31304; various reviews; expected issue date: FY 2015; work in
    progress)
HHS Office of Inspector General                                                                 Page 39
Medicaid Integrity Program Report | Fiscal Year 2013


•   Adult day health care services
    Billing and Payments. We will review Medicaid payments by States for adult day care services to
    determine whether the providers complied with Federal and State requirements. (OAS;
    W-00-12-31386; W-00-13-31386; various reviews; expected issue date: FY 2014; work in progress)

•   Continuing day treatment mental health services
    Billing and Payments. We will review Medicaid payments to continuing day treatment (CDT) mental
    health services providers to determine whether their claims were adequately supported. Our review
    will follow up on a State Commission’s findings of unsubstantiated claims. (OAS; W-00-12-31128;
    W-00-13-31128; various reviews; expected issue date: FY 2014; work in progress)

•   Room and board costs associated with home- and community-based services (HCBS)
    program payments
    State Claims—We will determine whether selected States claimed Federal reimbursement for
    unallowable room and board costs associated with services provided under home- and community-
    based services (HCBS) programs. We will determine whether HCBS payments included the costs of
    room and board and identify the methods the States used to determine the amounts paid. (OAS;
    W-00-13-31465; various reviews; expected issue date: FY 2014; work in progress)

•   Home health services—Screenings of health care workers
    Quality of Care and Safety—We will review health-screening records of Medicaid HHAs’ health care
    workers to determine whether they were screened in accordance with Federal and State
    requirements. (OAS; W-00-11-31387; W-00-12-31387; various reviews; expected issue date:
    FY 2014; work in progress)

•   Medical equipment and supplies—Opportunities to reduce Medicaid payment rates for
    selected items
    Policies and Practices. We will determine whether opportunities exist for lowering Medicaid
    payments for selected items of medical equipment and supplies. We will also determine the amount
    of Medicaid savings that could be achieved for selected items through rebates, competitive bidding,
    or other means. (OAS; W-00-13-31390; various reviews; expected issue date: FY 2014; new start)

•   Transportation services—Compliance with Federal and State requirements
    Billing and Payments. We will review Medicaid payments by States to providers for transportation
    services to determine the appropriateness of the payments for such services. (OAS; W-00-12-31121;
    W-00-13-31121; various reviews; expected issue date: FY 2015; work in progress)

•   Questionable billing for outpatient mental health services by medicaid providers
    Billing and Payments. We will review State payments for Medicaid outpatient mental health services
    to identify questionable billing patterns. We will also review combined Medicaid and Medicare
    claims data to identify additional questionable billing patterns. (OEI; 07-13-00320; expected issue
    date: FY 2014; work in progress)
HHS Office of Inspector General                                                                     Page 40
Medicaid Integrity Program Report | Fiscal Year 2013


•   Health-care-acquired conditions—Prohibition on Federal reimbursements
    Billing and Payments. We will determine whether selected States made Medicaid payments for
    health-care-acquired conditions and provider-preventable conditions and quantify the amount of
    Medicaid payments for such conditions. (OAS; W-00-14-31452; various reviews; expected issue
    date: FY 2015; new start; Affordable Care Act)

•   Dental services for children—Inappropriate billing
    State Claims. We will review Medicaid payments by States for dental services to determine whether
    States have properly claimed Federal reimbursement. (OAS; W-00-11-31135; W-00-12-31135;
    various reviews; expected issue date: FY 2014; work in progress)

•   Family planning services—Claims for enhanced Federal funding
    State Claims. We will review family planning services in several States to determine whether States
    improperly claimed enhanced Federal funding for such services and the resulting financial impact
    on Medicaid. (OAS; W-00-11-31078; W-00-12-31078; W-00-13-31078; various reviews; expected
    issue date: FY 2014; work in progress)

•   Access to pediatric dental care for children enrolled in Medicaid
    Quality of Care and Safety. We will review billing patterns of pediatric dentists and their associated
    clinics in selected States and describe the extent to which children enrolled in Medicaid received
    services from them. (OEI; 02-12-00330; 02-14-00120; various reviews; expected issue date:
    FY 2014; work in progress)

•   Utilization of preventive screening services for children enrolled in Medicaid (new)
    Quality of Care and Safety. We will determine what steps CMS has taken to address OIG’s
    recommendations to improve the provision of Medicaid Early and Periodic Screening, Diagnostic,
    and Treatment (EPSDT) services and what obstacles it faces in implementing these
    recommendations. We will also determine whether the underutilization of EPSDT services continues
    to be a challenge for children enrolled in Medicaid. (OEI, 05-13-00690; expected issue date: FY
    2014; work in progress)

State Management of Medicaid
•   State use of provider taxes to generate Federal funding
    Funding Mechanisms. We will review State health-care-related taxes imposed on various Medicaid
    providers to determine whether the taxes comply with applicable Federal requirements. Our work
    will focus on the mechanism States use to raise revenue through provider taxes and determine the
    amount of Federal funding generated. (OAS; W-00-13-31455; various reviews; expected issue date:
    FY 2014; work in progress)
HHS Office of Inspector General                                                                       Page 41
Medicaid Integrity Program Report | Fiscal Year 2013


•   State compliance with Federal Certified Public Expenditures regulations
    Funding Mechanisms. We will determine whether States are complying with Federal regulations for
    claiming Certified Public Expenditures (CPEs), which are normally generated by local governments as
    part of their contribution to the coverage of Medicaid services. (42 CFR § 433.51 and 45 CFR
    § 95.13.) (OAS; W-00-13-31110; various reviews; expected issue date: FY 2014; work in progress)

•   State allocation of Medicaid administrative costs
    State Claims—We will review administrative costs claimed by several States to determine whether
    they were properly allocated and claimed or directly charged to Medicaid. (OAS; W-00-10-31123;
    W-00-11-31123; W-00-13-31123; various reviews; expected issue date: FY 2014; work in progress)

•   State-operated facilities—Reasonableness of payment rates
    State Claims—We will determine whether Medicaid payment rates to State-operated facilities are
    reasonable and the Federal share is claimed in accordance with Federal and State requirements. We
    will determine in selected States the extent to which payments to such providers may be excessive.
    (OAS; W-00-12-31398; W-00-13-31398; various reviews; expected issue date: FY 2014; work in
    progress)

•   State cost allocations that deviate from acceptable practices
    State Claims—We will review public assistance cost allocation plans and processes for selected
    States to determine whether the States claimed Medicaid costs that were supported and allocated
    on the basis of random moment sampling systems (RMSS) that deviated from acceptable statistical
    sampling practices. (OAS; W-00-13-31467; various reviews; expected issue date: FY 2015; work in
    progress)

•   Enhanced Federal Medical Assistance Percentage (new)
    State Claims. We will review States’ Medicaid claims to determine whether the States correctly
    applied enhanced Federal Medical Assistance Percentage (FMAP) payment provisions of the
    Affordable Care Act. (OAS; W-00-14-31480; various reviews; expected issue date: FY 2015; new
    start; Affordable Care Act)

•   Medicaid eligibility enrollment—National error rates
    State Claims. We will determine the extent to which States improperly enrolled individuals in
    Medicaid programs who did not meet eligibility criteria and estimate national enrollment error rates.
    For FY 2014, the national enrollment error rates will be estimated for newly enrolled Medicaid
    beneficiaries in States that expanded their Medicaid programs pursuant to the Affordable Care Act
    and in States that did not. We will also identify issues that contributed to enrollment errors.
    (OEI; 00-00-0000; expected issue date: FY2015; new start; Affordable Care Act).

•   Medicaid eligibility determinations in selected States (new)
    State Claims. We will review Medicaid eligibility determinations in selected States. For each State
    selected, we will calculate a Medicaid eligibility error rate. We will focus on eligibility determinations
HHS Office of Inspector General                                                                  Page 42
Medicaid Integrity Program Report | Fiscal Year 2013


    for beneficiaries who are newly eligible for Medicaid pursuant to the Affordable Care Act and
    beneficiaries who were eligible for Medicaid prior to the eligibility expansion. We will also
    determine the amount of payments associated with beneficiaries who received incorrect eligibility
    determinations. (OAS; W-00-14-31140; various reviews; expected issue date: FY 2015; new start;
    Affordable Care Act)

•   State Medicaid monetary drawdowns—Reconciliation with Form CMS-64
    State Adjustments—We will review the Medicaid monetary drawdowns that States received from
    the Federal Reserve System to determine whether they were supported by actual expenditures
    reported by the States on the Form CMS-64. (OAS; W-00-12-31456; W-00-13-31456; various
    reviews; expected issue date: FY 2014; work in progress)

•   State reporting of Medicaid collections on Form CMS-64
    State Adjustments. We will determine whether States accurately captured Medicaid collections on
    their Form CMS-64 and returned the correct Federal share related to those collections.
    (OAS; W-00-12-31457; W-00-13-31457; various reviews; expected issue date: FY 2014; work in
    progress)

•   Estate recoveries—Compliance and reporting of recovered costs
    State Adjustments—We will determine whether States complied with requirements to recover
    Medicaid costs from deceased Medicaid beneficiaries’ estates. We will also determine whether
    States properly reported any such recoveries to CMS. (OAS; W-00-12-31113; W-00-13-31113;
    various reviews; expected issue date: FY 2014; work in progress)

•   State use of incorrect FMAP for Federal share adjustments (new)
    State Adjustments. We will review States’ Medicaid claims records to determine whether the States
    used the correct FMAP when processing claim adjustments reported on the Form CMS-64. (OAS;
    W-00-14-31460; various reviews; expected issue date: FY 2015; work in progress)

•   State actions to address vulnerabilities identified during CMS reviews
    Program Integrity. We will review corrective actions that State Medicaid agencies have implemented
    to address the findings and recommendations from State Medicaid program integrity reviews
    conducted by CMS. We will determine why States have not implemented all corrective actions,
    examine the followup CMS performed to ensure that corrective actions were taken by States, and
    examine the evidence CMS reviews to ensure that corrective actions were implemented. (OEI;
    00-00-00000; expected issue date: FY 2015; new start)

•   State terminations of providers terminated by Medicare or by other States
    Program Integrity. We will review States’ compliance with a new requirement that they terminate
    their Medicaid program providers that have been terminated under Medicare or by another State
    Medicaid progam. We will determine whether such providers are terminated by all State Medicaid
    programs in which they are enrolled, assess the status of the supporting information-sharing system,
    determine how CMS is ensuring that States share complete and accurate information, and identify
HHS Office of Inspector General                                                                   Page 43
Medicaid Integrity Program Report | Fiscal Year 2013


    obstacles States face in complying with the termination requirement. (OEI; 06-12-00030; expected
    issue date: FY 2014; work in progress; Affordable Care Act)

•   Recovering Medicaid overpayments—Credit balances in Medicaid patient accounts
    Overpayment Recovery. We will review providers’ patient accounts to determine whether there are
    Medicaid overpayments in accounts with credit balances. (OAS; W-00-12-31311; W-00-13-31311;
    various reviews; expected issue date: FY 2014; work in progress)

•   State collection and verification of provider ownership information
    Program Integrity—We will determine the extent to which States and CMS collect and verify
    required ownership information for provider entities enrolled in Medicare and Medicaid. We will
    also review States’ and CMS’s practices for collecting and verifying provider ownership information
    and determine whether States and CMS had comparable provider ownership information for
    providers enrolled in both Medicaid and Medicare. (42 CFR § 455.104.) (OEI; 04-11-00590,
    04-11-00591, 04-11-00592; expected issue date: FY 2015; work in progress)

•   States’ experiences with enhanced provider screening
    Program Integrity. We will review States’ progress toward rescreening or revalidating all Medicaid
    providers by 2016. We will assess how States are complying with the mandate to conduct enhanced
    screening; determine how many providers are enrolled in both Medicare and Medicaid; and
    determine whether States can use screenings from Medicare, other State Medicaid programs, and
    the Children's Health Insurance Program (CHIP). (OEI; 05-13-00520; expected issue date FY 2015;
    work in progress; Affordable Care Act)

•   Provider payment suspensions during pending investigations of credible fraud
    allegations (new)
    Program Integrity. We will review payments to providers with allegations of fraud deemed credible
    by States. We will also review States’ suspension of payments processes. We will determine if select
    Medicaid State agencies are in compliance with required provisions. (OAS; W-00-14-31473; various
    reviews; expected issue date: FY 2015; new start; and OEI; 09-14-00020; expected issue date:
    FY 2015; work in progress; Affordable Care Act)

•   Reviews of State Medicaid Fraud Control Units
    Program Integrity. We will review the overall management, operations, and performance of a
    sample of Medicaid Fraud Control Units (MFCU). We will identify effective practices and areas for
    improvement in MFCU management and operations. (OEI; 00-00-00000; various reviews; expected
    issue date: FY 2014; work in progress).

•   States and Territories without Medicaid Fraud Control Units (new)
    Program Integrity. We will determine whether each of the U.S. territories, none of which currently
    operate a MFCU, have sought an exemption as part of their State Medicaid plan as required by
    section 1902(a)(61) of the Social Security Act. We will also determine whether North Dakota, the
    only State without a MFCU and which received an exemption in 1994, continues to operate under
HHS Office of Inspector General                                                                     Page 44
Medicaid Integrity Program Report | Fiscal Year 2013


    the conditions that supported the State’s exemption. (OEI; 00-00-00000; expected issue date:
    FY 2015; new start)

Medicaid Information System Controls and Security
•   Inactive or invalid provider identifier numbers
    Payment Controls. We will review Medicaid claims to determine the extent to which State agencies
    have controls in place to identify claims associated with inactive or invalid national provider
    identifiers (NPIs), including claims for services alleged to have been provided after the dates of the
    referring physicians’ deaths.
    (OAS; W-00-13-31338; various reviews; expected issue date: FY 2015; work in progress)

•   Duplicate payments for beneficiaries with multiple Medicaid identification numbers
    Payment Controls. We will review duplicate payments made by States on behalf of Medicaid
    beneficiaries with multiple Medicaid identification numbers and identify States’ procedures or other
    controls for preventing such payments. (OAS; W-00-12-31374; W-00-13-31374; various reviews;
    expected issue date: FY 2014; work in progress)

•   States’ use of PARIS data matching to reduce improper payments
    Payment Controls. We will review Public Assistance Reporting Information System (PARIS)
    enrollment data and determine the extent to which States use PARIS to prevent improper Medicaid
    payments made on behalf of beneficiaries who are simultaneously enrolled in more than one State.
    (OEI; 09-11-00780; expected issue date: FY 2014; work in progress)

•   National Correct Coding Initiative edits and CMS oversight (new)
    Payment Controls. We will review selected States’ implementation of National Correct Coding
    initiative (NCCI) edits for Medicaid claims and describe CMS’s oversight of NCCI edits.
    (OAS; W-00-13-31459; various reviews; expected issue date: FY 2014; work in progress; and OEI; 00-
    00-00000; expected issue date: FY 2015; work in progress, Affordable Care Act)

•   CMS oversight of States’ Medicaid information systems security controls (new)
    System Security Controls. We will determine the adequacy of CMS’s oversight of States’ Medicaid
    system and information security controls, including the policies, technical assistance, and security
    and operational guidance provided to the States. For selected States, we will use OIG’s automated
    assessment tools to assess controls for their information system networks, databases, Web-facing
    applications, logical access, and wireless access. We will also review general controls, such as
    disaster recovery plans and physical security. (OAS, W-00-13-40019; W-00-14-40019; various
    reviews; expected issue date: FY 2014; work in progress and new start)
HHS Office of Inspector General                                                                  Page 45
Medicaid Integrity Program Report | Fiscal Year 2013



Medicaid Managed Care
•   Medicaid managed care reimbursement (new)
    State Payments to MCOs. We will review States’ managed care plan reimbursements to determine
    whether managed care organizations (MCOs) are appropriately and correctly reimbursed for services
    provided. We will ensure that the data used to set rates are reliable and include only costs for
    services covered under the State plan as required by or costs of services authorized by CMS. (42 CFR
    §438.6(e).) Also, we will verify that payments made under a risk-sharing mechanism and incentive
    payments made to MCOs are within the limits set forth in Federal regulations. Context—Previous
    GAO work found that CMS’s oversight of States’ rate setting required improvement and that States
    may not audit or independently verify the MCO reported data used to set rates. (GAO-10-810.)
    (OAS; W-00-14-31471; various reviews; expected issue date: FY 2015; new start)

•   Medical loss ratio—Managed care plans’ refunds to States
    Adjustments to State Payments. We will review managed care plans with contract provisions that
    require a minimum percentage of total costs to be expended for medical services (medical loss ratio)
    to determine whether a refund was made to the State agency when the minimum medical loss ratio
    threshold was not met. We will also determine whether plan expenses were properly classified as
    medical or administrative. (OAS; W-00-13-31372; various reviews; expected issue date: FY 2015;
    work in progress)

•   Completeness and accuracy of managed care encounter data
    Data Collection and Reporting. We will determine the extent to which complete Medicaid managed
    care encounter data are included in Medicaid Statistical Management Systems (MSIS). We will also
    identify factors that enable States and Medicaid managed care entities to collect and report MSIS
    encounter data or prevent them from performing these functions. Finally, we will assess CMS’s
    oversight of the reporting of MSIS encounter data. (OEI; 07-13-00120; expected issue date: FY 2015;
    work in progress; Affordable Care Act)

•   Medicaid managed care entities’ identification of fraud and abuse
    Program Integrity—We will determine whether Medicaid MCOs identified and addressed potential
    fraud and abuse incidents. We will also describe how States oversee MCOs’ efforts to identify and
    address fraud and abuse. (OEI; 02-13-00640; expected issue date: FY 2015; new start)

•   Beneficiary access to services under medicaid managed care
    Beneficiary Protections. We will review Medicaid managed care provider networks and describe
    the extent to which managed care beneficiaries have access to services. We will also describe State
    standards for ensuring access to primary and specialty care and will determine the extent to which
    States identify and address problems with access to care in their managed care plans.
    (OEI; 02-11-00320; 02-13-00670; expected issue date: FY 2014; work in progress; Affordable
    Care Act)
HHS Office of Inspector General                                                                  Page 46
Medicaid Integrity Program Report | Fiscal Year 2013


•   Medicaid managed care beneficiary grievances and appeals process
    Beneficiary Protections. We will review the extent to which States monitor Medicaid MCOs’
    grievances and appeals systems for compliance with Federal requirements. (OEI; 00-00-00000;
    expected issue date: FY 2014; new start)

•   Oversight of managed care entities’ marketing practices
    Beneficiary Protections. We will review State Medicaid agencies’ oversight policies, procedures, and
    activities to determine the extent to which States monitor Medicaid MCOs’ marketing practices and
    compliance with Federal and State contractual marketing requirements. We will also determine the
    extent to which CMS ensures that States’ comply with Federal requirements involving Medicaid MCO
    marketing practices. (OEI; 00-00-00000; expected issue date: FY 2015; new start)
